<html>
<title> - TERRORISM: RADICAL ISLAMIC INFLUENCE OF CHAPLAINCY OF THE U.S. MILITARY AND PRISONS</title>
<body><pre>[Senate Hearing 108-443]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-443

TERRORISM: RADICAL ISLAMIC INFLUENCE OF CHAPLAINCY OF THE U.S. MILITARY 
                              AND PRISONS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 2003

                               __________

                          Serial No. J-108-44

                               __________

         Printed for the use of the Committee on the Judiciary



93-254              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
MIKE DeWINE, Ohio                    JOSEPH R. BIDEN, Jr., Delaware
JEFF SESSIONS, Alabama               HERBERT KOHL, Wisconsin
SAXBY CHAMBLISS, Georgia             JOHN EDWARDS, North Carolina
                Stephen Higgins, Majority Chief Counsel
                David Hantman, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
    prepared statement...........................................    52
Schumer, Charles E., a U.S. Senator from the State of New York...     4
    prepared statement...........................................    78
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     7
    prepared statement...........................................    81

                               WITNESSES

Abell, Charles S., Principal Deputy Under Secretary for Personnel 
  and Readiness, Department of Defense, Washington, D.C..........    10
Lappin, Harley G., Director, Federal Bureau of Prisons, 
  Washington, D.C................................................    12
Pistole, John S., Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigation, Washington, D.C...............     8
Rogers, Paul E., President, American Correctional Chaplains 
  Association, Waupun, Wisconsin, accompanied by A.J. Sabree, 
  Treasurer, American Correctional Chaplains Association, 
  Atlanta, Georgia...............................................    31
Waller, Michael, Annenberg Professor of International 
  Communication, Institute of World Politics, Washington, D.C....    29

                       SUBMISSIONS FOR THE RECORD

Abell, Charles S., Principal Deputy Under Secretary for Personnel 
  and Readiness, Department of Defense, Washington, D.C., 
  prepared statement.............................................    43
Graduate School of Islamic and Social Sciences, Leesburg, 
  Virginia, statement............................................    50
Lappin, Harley G., Director, Federal Bureau of Prisons, 
  Washington, D.C., prepared statement...........................    53
Luque, Nancy, Luque Sheinbach LLP, Washington, D.C., statement 
  and attachment.................................................    64
North American Islamic Trust, Inc., M. Naziruddin Ali, General 
  Manager, Burr Ridge, Illinois, letter and attachment...........    65
Pistole, John S., Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigation, Washington, D.C., prepared 
  statement......................................................    68
Rogers, Paul E., President, American Correctional Chaplains 
  Association, Waupun, Wisoconsin, prepared statement and 
  attachment.....................................................    73
Waller, Michael, Annenberg Professor of International 
  Communication, Institute of World Politics, Washington, D.C., 
  prepared statement and attachment..............................    84

 
TERRORISM: RADICAL ISLAMIC INFLUENCE OF CHAPLAINCY OF THE U.S. MILITARY 
                              AND PRISONS

                              ----------                              


                       TUESDAY, OCTOBER 14, 2003

                              United States Senate,
        Subcommittee on Terrorism, Technology and Homeland 
                                                  Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee, presiding.
    Present: Senators Kyl, Sessions, Feinstein, Schumer, and 
Durbin.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. Welcome. This hearing of the Judiciary 
Committee Subcommittee on Terrorism, Technology, and Homeland 
Security will come to order. I thank you all for being here 
this morning for what I hope will be a very informative 
hearing. Let me make a brief opening statement, indicate who 
our witnesses today will be, and then call on Vice Chairman, 
Senator Feinstein.
    In the 2 years since September 11, there have been numerous 
hearings, reports, and studies by Congress and outside experts. 
Many have focused on examining what led to our vulnerability on 
September 11 and what processes need to be reviewed or laws 
changed to avoid a repeat of that tragic day.
    In reviewing the record of these hearings and reports, a 
clear picture emerges of how terrorists exploit a free society 
like the United States to conduct the wide range of activities 
necessary for effective terror operations. The relationship 
between these terrorists and foreign-based sponsors, states, 
and global actors also emerges and strongly suggests that the 
war on terror at home and the one abroad are in the deepest 
sense one and the same.
    This seems self-evident, except for the fact that as a 
whole we do not approach it this way either analytically or 
operationally. Evidence urges that we begin doing so 
immediately, not least because the enemy long ago determined 
these fronts to be one war.
    While the above hearing and report process was proceeding 
apace, so were two other things: one the activities of terror 
groups, their networks and supporters here and abroad, and, 
two, the ongoing efforts of U.S. foreign and domestic 
intelligence and enforcement to monitor, interdict, and 
prosecute terrorists and their support networks.
    If one engages in this sort of integrated analysis long 
enough, one could begin to anticipate, for example, what has 
emerged in the headlines in recent weeks in regard to both the 
Department of Defense and the Bureau of Prison chaplains.
    Recent hearings by the Subcommittee on Terrorism have 
exposed the growing dominance of a radical sect of Islam in the 
United States. This sect, commonly referred to as Wahhabism, 
preaches jihad against Christians, Jews, and Muslims who do not 
tow the Wahhabi line. All 19 of the September 11 hijackers were 
followers of Wahhabism, as is Osama bin Laden.
    This violent perversion of Islamic faith has been 
responsible for terrorist attacks against innocent civilians, 
both Muslim and non-Muslim, all over the world. There have been 
an increasing number of instances in which Wahhabists have 
successfully penetrated key U.S. institutions, such as the 
miliary and the our prison system.
    As several recent media reports have noted, the two groups 
that accredit and recommend Muslim chaplains to the military--
the Graduate School of Islamic and Social Science and an 
organization under the umbrella of the American Muslim 
Foundation--have long been suspected of links to terrorist 
organizations by the Federal Government. Another group accused 
of ties to Islamic extremists, the Islamic Society of North 
America, refers Muslim clerics to the Bureau of Prisons.
    Earlier this month, one of the key architects of the U.S. 
military's chaplain program, Abdurahman Alamoudi, was arrested 
and charged with an illegal relationship with Libya, long a 
state sponsor of terror. Authorities have also charged Captain 
James Yee, a Muslim clergyman who was once stationed at 
Guantanamo Bay, Cuba, with two counts of mishandling classified 
information.
    Additionally, the New York State prison system promoted a 
Muslim cleric to a position that allowed him to supervise the 
hiring and firing of all prison chaplains. He was later removed 
from his job when officials discovered he was an Al-Qaeda 
sympathizer who incited prisoners against America.
    Jose Padilla, a terrorist accused of trying to build a 
dirty bomb to unleash in the United States, was exposed to 
radical Islam in the U.S. prison system. Richard Reid, the so-
called shoe bomber, was converted to fundamentalist Islam while 
serving time in a British prison.
    Today's hearing is the third in a series to examine 
terrorist ideology, support networks, and state sponsorship. As 
I said at the last hearing, to defeat the terrorists, we must 
understand their goals, their resources, and their methods, 
just as well as they understand our system of freedom and how 
to exploit that for their terrible purposes. In other words, we 
have got to continue to connect the dots.
    Today, the Subcommittee will hear testimony from the FBI, 
the Department of Defense, and the Bureau of Prisons. To 
connect the dots, the Subcommittee will hear from Dr. Michael 
Waller, Annenberg Professor of International Communication at 
the Institute of World Politics. Dr. Waller will testify, among 
other things, to these three important points: one, foreign 
states and movements have been financing the promotion of 
radical political Islam within America's armed forces and 
prisons. Two, this radical Islam preaches extreme intolerance 
and hatred of American society, culture, government, and the 
principles enshrined in the U.S. Constitution, and it seeks the 
ultimate overthrow of the Constitution. Three, terrorists have 
exploited America's religious tolerance, and the chaplain 
programs in particular, as key elements of infiltrating the 
military and the prisons.
    In addition, we will hear from Mr. Paul Rogers, who is 
President of the American Correctional Chaplains Association, 
and he will be accompanied by Mr. A. J. Sabree, Treasurer of 
the American Correctional Chaplains Association.
    I want to thank Senator Feinstein, and also Senator Schumer 
and their staff, for their work in helping to prepare for this 
hearing. And at this time, before calling upon the first panel, 
I would ask Senator Feinstein to make any opening remarks that 
she has.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman, and 
thank you for holding this hearing.
    I believe there is cause for concern. I don't think we 
should jump to conclusions. I certainly welcome this hearing as 
a fact-finding hearing. I think there are some cases that have 
been made public that cause concern, and also provide a 
rationale for this hearing.
    For example, we can look to the recent dismissal of Imam 
Warith Deen Umar, the former head Muslim chaplain for New York 
Prisons, who abused his position to promote Islamic radicalism 
there. According to Prison Legal News, Umar stated that prison, 
quote, ``is the perfect recruitment and training ground for 
radicalism and the Islamic religion,'' end quote. That also 
gives us cause to take this look. He said that the September 11 
hijackers should be honored as martyrs.
    We should also note the fact that Richard Reid, the shoe 
bomber, was converted to Islam by a radical imam in a British 
prison, and there is evidence that Jose Padilla, who was 
allegedly sent to the United States to detonate a dirty bomb, 
was exposed to Islam during his many stints in American 
prisons.
    In the U.S. military, there are 4,800 chaplains, 12 of whom 
are Muslim. I have seen no suggestion that, other than Captain 
Yee, any of these individuals is promoting radical Islamic 
beliefs or has any links whatsoever to terrorism. However, I 
understand that the military relies on two groups to certify 
Islamic chaplains--the Islamic Society of North America, as you 
have mentioned, and the American Muslim Armed Forces and 
Veterans Affairs Council.
    I also understand that some have raised concerns about both 
of these groups. So I would like to inquire, and I believe you 
do as well, Mr. Chairman, why the military uses the ISNA and 
the AMF to certify Islamic chaplains and if there is any reason 
not to.
    In addition, I believe that most U.S. military Islamic 
chaplains were trained at the Graduate School for Islamic 
Social Sciences in Leesburg, Virginia. This graduate school has 
been raided by United States Customs as part of an 
investigation into money being funneled to Al-Qaeda and other 
militant Islamic groups. While it is true that no charges have 
been filed in connection with this raid, it perhaps does raise 
some questions about the hiring of chaplains trained at the 
school.
    In the Federal prison system, there are 231 full-time civil 
service prison chaplains, 10 of them Muslim. Again, I have seen 
no suggestion that any of these individuals is promoting 
radical Islamic beliefs or has any links whatsoever to 
terrorism.
    However, we know that several of these individuals in the 
Federal prison system were sponsored by ISNA, as well as the 
American Muslim Council. I would like to know why the Bureau of 
Prisons uses these groups to sponsor prospective Islamic 
chaplains and if any reason exists to use other groups.
    Mr. Chairman, as you suggested, there are a number of 
questions that have emerged about how the United States 
military and Federal prisons select chaplains and who sponsors 
those individuals. So I hope that the witnesses today will help 
us answer these questions.
    Chairman Kyl. Thank you very much, Senator Feinstein. You 
hit the nail right on the head with the questions you have 
asked and, of course, we know that those are questions that the 
panel will want to address.
    Senator Schumer, would you like to make an opening 
statement?

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you. I would, Mr. Chairman. First, 
let me thank you and Senator Feinstein for your leadership on 
this issue and making sure that we find out the answers to the 
questions that you and my friend from California have asked.
    As we all know, the hearings come at a crucial time, as we 
continue to fight the war on terror, and I am glad that we have 
a diverse roster of witnesses with us here today on this 
important subject. Let me stress, I would like to hear all the 
sides to this. I know you have made efforts to invite all sides 
and some people have refused to come, but we are still making 
efforts to get everybody to come and answer questions, which I 
appreciate.
    Generations of immigrants dating back to the first 
Americans have come to this land seeking to escape religious 
persecution, and we have honored this tradition by making 
freedom of worship one of our Nation's most sacred rights. 
Seven months ago, I wrote letters to the Inspectors General of 
the Federal Bureau of Prisons and the Department of Defense 
because I feared that at least when it came to those who 
practice Islam in the prisons and the military, those rights 
could be in danger.
    I had discovered that the few groups charged with 
certifying Muslim chaplains in these institutions had several 
disturbing ties to a puritanical and intolerant form of Islam 
known as Wahhabism. The official state religion in Saudi 
Arabia, Wahhabism also provides part of Al-Qaeda's ideological 
foundation.
    Far from endorsing the pluralistic approach to religious 
belief that we all hold dear, Wahhabism espouses an extremist, 
anti-Western, exclusionary religious doctrine, and denigrates 
other faiths, be they other forms of Islamic belief such as 
moderate Sunni, Shia, and Sufi Islam, or Christianity or 
Judaism.
    I became concerned that these other forms of Islamic 
belief, peaceful, inclusive, spiritual ideals held by the 
majority of American Muslims, were not being given an 
opportunity to express themselves. So I asked the inspectors 
general to investigate the groups responsible for certifying 
the military and prison chaplains, and I told them in my 
letters that my own preliminary digging had uncovered some 
disturbing results.
    One group, the ISNA, the Islamic Society of North America, 
had on its governing board a man named Siraj Wahaj. Mr. Wahaj 
is an unindicted co-conspirator in the 1993 World Trade Center 
bombing that the FBI now believes was master-minded by one of 
Osama bin Laden's top lieutenants. Why such a man would remain 
on the board for many years afterwards raises a whole lot of 
questions.
    Another, the Graduate School for Islamic Social Sciences, 
is under investigation, and I understand the investigation is 
continuing, for terrorist financing. And the third, the 
American Muslim Armed Forces and Veterans Affairs Council, is a 
sub-group of the American Muslim Foundation, which is also 
under investigation for terrorist financing. They have the same 
501(c)(3) number, and that means that the subsidiary group says 
it is doing the same thing that the parent group does.
    Within a few weeks of having sent my letters, I received 
assurances from both inspectors general that they were 
examining the situation and would get back to me. Well, as I 
have said earlier, that was more than 6 months ago and to this 
day, despite numerous follow-up attempts, I have no idea of 
what has become of their efforts.
    I want to be clear here. I am not saying these groups are 
filled with terrorists. Certainly not every member of the group 
is a terrorist. I have an enduring respect for the overwhelming 
majority of American Muslims, who are peaceful, hard-working, 
and patriotic.
    Just this summer, my family and I took a trip to Spain, 
where we visited a large number of the old Moorish mosques, and 
the essential peacefulness and tranquility of the Muslim 
religion was apparent in the architecture, the beliefs, and the 
history that we studied there.
    I am saying, however, that there is enough evidence to 
warrant an investigation of these groups to assess their 
pluralistic credentials and determine whether they should be 
advising, and certainly should be advising exclusively the 
Pentagon and the Bureau of Prisons on who should provide 
spiritual guidance to American soldiers and inmates.
    In the 6 months since I have made this request, the case 
for an investigation has grown stronger, not weaker. News 
reports and experts who have testified before this Committee 
suggest that discrimination against Shia prisoners in Federal 
institutions is rampant and that Wahhabi literature is readily 
available behind prison walls.
    Stephen Schwartz, the author of Two Faces of Islam, says 
Shia prisoners are unable to worship freely and may fear for 
their safety while incarcerated. We have heard of similar 
situations in New York State prisons incidentally, Mr. 
Chairman. According to Musin Alidina of the Alkowi Islamic 
Center in New York, Shia prisoners send the mosque stacks of 
letters every month complaining of mistreatment. That is pretty 
serious.
    Steven Emerson, the head of the Investigative Project, says 
Wahhabi literature makes its way into prison libraries, 
courtesy of the Saudi-backed Al-Haramain Foundation.
    In June, the websites for the Navy and Air Force chaplains 
were found to have links to IslamWorld.net, a website that 
espouses Wahhabism. The site contained links to lectures by 
fundamental clerics, some of whom advocate jihad against the 
United States and denigrate Christianity and Judaism as forms 
of disbelief.
    All of this seems to point in the direction of our worst 
fears. Rather than encouraging a pluralistic environment for 
Islamic belief, the chaplains program was promoting only a 
specific, narrow, and exclusionary agenda. And then on 
September 10, one Muslim military chaplain, Captain James Yee, 
was detained for having classified documents about operations 
at Camp X-Ray. We don't know the full details of the 
investigation of Captain Yee, but he was arrested and charged 
last week, and more serious charges may be forthcoming.
    Almost lost in the tumult surrounding Yee's detention was 
another far more stunning revelation. In 2001, another Muslim 
military chaplain, Abdul Mohammed, traveled to Saudi Arabia for 
the haj with a number of other Muslim U.S. service members on a 
trip that was fully paid for by the World Muslim League. The 
World Muslim League is a known Saudi organization dedicated to 
front Wahhabism, and in 1996 the CIA identified it as a front 
for Al-Qaeda. What is such a group doing sponsoring American 
soldiers to go on a haj. Go on a haj, great. Why this group, 
and what happened there?
    So it boggles my mind that someone the CIA identified as a 
front for Al-Qaeda would be allowed to pay for travel expenses 
of some of our active soldiers. Who knows who had access to our 
loyal service members while they were in Saudi Arabia.
    Then there is more bad news coming from associates of the 
chaplains program. On September 30, the FBI arrested Abdurahman 
Alamoudi, the man responsible for starting the military's 
Muslim chaplain program, charging him with violating the Libya 
Sanctions Act.
    Despite all of these developments, and despite all of the 
connections between Saudi Arabia, Wahhabism, and the 
organizations involved in the Muslim chaplain programs, I have 
not heard back from either the Pentagon or the Bureau of 
Prisons about the status of the investigations I requested over 
6 months ago.
    We live in a post-9/11 world. Everyone knows that. It is a 
world in which terrible events have taught us, taught my city, 
people I know, and myself, of course, that you can't be too 
careful. It is a world in which certain groups are sworn 
enemies of our pluralistic way of life, and it is a world in 
which we now know that incitement breeds hate that can 
sometimes give way to violence.
    Does the evidence show that the organizations that endorse 
Muslim chaplains for our military and prisons are part of this 
movement? No, but evidence and revelations over the last 6 
months show that there has been a lot of smoke surrounding 
these groups, and the IGs of Prisons and the military ought to 
find out whether there is fire. At the very least, an 
investigation is warranted, and we sit here waiting and I at 
least sit here wondering why that is not occurring, at least in 
terms of the information that I have been given.
    Chairman Kyl. Thank you very much, Senator Schumer.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. I salute you for 
your strong leadership and consistent leadership on this issue 
to deal openly and honestly with a problem that is very real. I 
know none of us enjoys the prospect of confronting the question 
of chaplains. It is something we would prefer not to deal with, 
but it is a very real problem, as evidence has shown us.
    I have some remarks that I would put in the record, Mr. 
Chairman, but I would note that, as I understand it, in the 
appointment of a chaplain they have to be endorsed by a 
religious organization of some kind. That endorsement is 
critical to the maintaining of their ability to be a chaplain. 
I have a Methodist friend who is a chaplain. He maintains his 
connection with the United Methodist Church. If he loses that, 
he probably would lose his ability to be a chaplain.
    So does that group who endorses have the ability to control 
or influence in a way that may be contrary to the interests of 
this country? I think we have a right to ask that and I look 
forward to the hearing.
    Chairman Kyl. Thank you very much, Senator Sessions.
    Just as a preliminary matter, to show just how this 
terrorism can reach every one of us, we noted the 1-year 
anniversary of the Bali bombing just a year ago. I would note 
with sadness that Sunday was the first anniversary of Professor 
Mike Waller's cousin's death, Ed Waller, who was killed in the 
Bali bombing last year. I hope that after the first panel, you 
will be interested in the testimony that Professor Waller and 
the other panelists will provide in the second panel to help 
paint the picture here of what we are trying to deal with.
    With that, let me introduce the panel that will first 
testify. John Pistole began his career with the FBI in 1983, 
and since that time he has held a number of important positions 
in the FBI, including Assistant Special Agent in Charge at the 
FBI's Boston office. In September 2003, Mr. Pistole was 
appointed Assistant Director of the Counterterrorism Division. 
That is obviously the point of his testifying here today, 
because in that position he is responsible for directing the 
FBI's counterterrorism efforts.
    Charles Abell, with the Department of Defense, was 
appointed by the President as Principal Deputy Under Secretary 
of Defense for Personnel and Readiness on November 15, 2002. He 
is the primary assistant to the Under Secretary of Defense for 
Personnel and Readiness, providing staff advice to the 
Secretary of Defense and Deputy Secretary of Defense. Before 
joining the Defense Department, Mr. Abell served as a 
professional staff member of the Senate Armed Services 
Committee and was lead staffer for the Subcommittee on 
Personnel. He entered active-duty service as an enlisted 
soldier and concluded his Army career by retiring as a 
lieutenant colonel.
    Director Harley Lappin, of the Bureau of Prisons, joined 
the Bureau of Prisons in 1985. He began his career as a 
correctional treatment specialist at the Federal Correctional 
Institution in Texarkana, Texas, and held a variety of 
positions at eight different Bureau of Prisons locations around 
the country. In July of 2001, Mr. Lappin was promoted to 
Regional Director for the Bureau's Mid-Atlantic Region and 
became the Bureau's seventh director on April 4 of this year.
    Clearly, we have the people who can answer the questions 
that have been provided here and I am delighted to welcome all 
of you to be with us today. I thank you very much.
    John Pistole, we will start with you, sir.

       STATEMENT OF JOHN S. PISTOLE, ASSISTANT DIRECTOR, 
  COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                        WASHINGTON, D.C.

    Mr. Pistole. Good morning, Chairman Kyl. Thank you. Vice 
Chair Senator Feinstein, Senator Schumer, Senator Sessions, 
thank you for the opportunity to be here this morning to talk 
about a couple of things: first, the FBI's role, in close 
coordination with the Federal Bureau of Prisons, in the 
prevention of terrorist recruiting within the Federal Bureau of 
Prisons system, and, second, as to the FBI's role, in concert 
with the Department of Defense, in the assessment of the 
translators and chaplaincy program within the Department of 
Defense as to the ramifications of what that may mean from a 
counterterrorism perspective.
    As the Subcommittee is well aware, the FBI has changed our 
focus following the events of September 11, where we have made 
counterterrorism our top priority and redirected resources 
accordingly. The emphasis has been placed on inteligence, with 
prevention of future terror attacks as our overriding goal.
    Counterterrorism investigations have become intelligence-
driven, meaning that the criminal investigations into terrorist 
activity are considered tools to achieve disruption, 
dismantlement, and prevention. The collective assessment of the 
intelligence community, including the FBI, is that Al-Qaeda 
remains the greatest terrorist threat to the United States and 
our allies' interests around the world. We believe Al-Qaeda is 
seeking to recruit individuals within the United States, as 
demonstrated by their training manuals and detainee interviews.
    Some of these terrorists seek to exploit our freedom to 
exercise religion, we believe, to their advantage by using 
radical forms of Islam to recruit operatives. Unfortunately, 
U.S. correctional institutions are a viable venue for such 
radicalization and recruitment.
    This not something new. Other extremist groups have also 
followed this blueprint. Since 1979, the Bureau of Prisons, 
along with the FBI, have been aware of the Aryan Nation, a 
violent neo-Nazi white supremacist organization that has been 
engaged in prison recruiting. It is an important aspect of the 
Aryan Nation's agenda, given that many of its members are 
serving lengthy prison sentences.
    The Aryan Nation conducts extensive prison outreach through 
correspondence from area chapter members. Their leaders visit 
prison facilities specifically for the purpose of recruiting 
members, promoting racial intolerance and hatred, and spreading 
neo-Nazi propaganda. Terrorist sympathizers, we believe, do the 
same.
    Senator Feinstein mentioned one such instance involving 
Warith Deen Umar, the former administrative chaplain for the 
State of New York Department of Corrections. A radical Muslim, 
Umar denied prisoners access to mainstream imams and materials. 
He sought to incite prisoners against America, preaching that 
the 9/11 hijackers should be remembered as martyrs and heroes. 
Umar has since been banned from entering the New York State 
prisons and the Federal Bureau of Prisons.
    To assist in ferreting out potential radicalization issues 
within the Federal Bureau of Prisons system, the Bureau of 
Prisons maintains a presence on the FBI's National Joint 
Terrorism Task Force here in Washington.
    Recruitment of inmates, we believe, within the prison 
system will continue to be a problem throughout our country. 
Inmates are often ostracized, abandoned by, or isolated from 
their family and friends, leaving them susceptible to 
recruitment. Membership in the various radical groups offer 
inmates protection, positions of influence, and a network they 
can correspond with both inside and outside of prison. Several 
examples have been mentioned here this morning already.
    Turning to the Guantanamo Bay issue, the FBI is working 
directly with the Department of Defense on the issues 
surrounding the recent arrest or a translator on July 23 in 
Jacksonville, a chaplain on September 10, and another 
translator in Boston on September 29. The FBI considers these 
matters to be potentially serious breaches of national security 
and will continue to work jointly with the Department of 
Defense in order to successfully resolve these matters and 
limit the damage they may have caused.
    The FBI is also working with DOD and BOP to assess the 
mechanisms and protocols by which chaplains and translators are 
vetted for employment, as has been mentioned. In addition, the 
FBI is evaluating the protocols for ongoing security 
assessments of such employees during sensitive assignments, 
such as more frequent polygraph examinations.
    In conclusion, we all recognize that terrorism represents a 
continuing global problem. Part of the solution, we believe, is 
grounded in what we have experienced since September 11, which 
is unprecedented domestic and international cooperation and 
coordination. The threat terrorism poses must always be 
considered imminent. We must constantly look at improving ways 
to gather, analyze, and disseminate intelligence. In forging 
partnerships with local, State and Federal law enforcement and 
correctional agencies, the FBI has made considerable progress 
toward achieving and implementing these goals.
    Again, Chairman Kyl, Vice Chair Feinstein, I appreciate the 
opportunity to appear before you today. Thank you.
    [The prepared statement of Mr. Pistole appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much, Mr. Pistole.
    Charles Abell.

  STATEMENT OF HON. CHARLES S. ABELL, PRINCIPAL DEPUTY UNDER 
 SECRETARY FOR PERSONNEL AND READINESS, DEPARTMENT OF DEFENSE, 
                        WASHINGTON, D.C.

    Mr. Abell. Thank you, Mr. Chairman, members of the 
Committee. I would like to talk to you today about officership 
and professionalism in our armed forces. There is no aspect of 
our officer corps more central to the success of the U.S. 
military, and this is true whether the officer be an 
infantryman, an aviator, a chaplain, doctor, or lawyer.
    The levels of integrity and personal conduct required of an 
officer are high, and with good reason. Officers may be 
required to make decisions affecting millions of dollars. More 
importantly, their judgment and decisions may mean the 
difference between life and death for the troops with whom they 
serve. A ship's captain literally holds the crew's fate in his 
or her hands, while a lawyer in-theater reviewing the legality 
of proposed target selections during a ground campaign plays 
similarly a key role in the ultimate success.
    Active-duty officers come from a variety of commissioning 
sources, including our service academies, the Reserve Officer 
Training Corps programs at colleges and universities, the 
officer candidate schools or officer training schools of the 
services, and, for some, direct appointments, especially for 
physicians, attorneys and chaplains.
    These civilian professionals are assessed directly into the 
officer corps and then attend training that focuses on their 
role as commissioned officers. Each military department has a 
chaplains corps, comprised of highly qualified men and women 
who become members of the armed forces to minister to service 
members and their families.
    Chaplains are commissioned officers. They take the same 
oath to support and defend the Constitution as their doctor, 
lawyer, or line officer peers. My emphasis on this point is 
that the characteristics of an officer is by no means intended 
to minimize the importance of the professional training and 
religious certification which chaplain candidates must 
complete. I simply want to focus on the fact that chaplains, 
like members of the professions of law and medicine, must 
initially meet the very high standards of commissioned military 
service. The chaplain's commission is, in fact, a discretionary 
appointment based as much on his or her officership qualities 
as on their ministerial credentialing.
    There are basically three ways in which our system ensures 
that officers are assessed and retained based on their ability 
to meet standards. These are: professional credentialing, 
security clearances, and, once the officer is on active duty, 
monitoring of his or her performance. I am aware that the issue 
of credentialing is of particular interest today and I want to 
begin with a review of that process.
    To ensure quality, a college degree is a fundamental 
requirement for joining the officer corps. In addition to 
educational requirements, the services employ a variety of 
assessments to qualify candidates for overall commissioning 
standards, as well as for assignment within specialties which 
require particular aptitudes, such as nuclear engineering or 
aviation.
    The military system for procurement and training of 
commissioned officers is designed to obtain individuals of high 
quality. In the case of professions such as law, medicine and 
theology, there are additional credentialing requirements. 
These are not instead of, but in addition to the standards 
required of any officer.
    We began revising the directive for credentialing chaplains 
almost a year ago. This morning, I signed a memorandum that 
puts part of that revision into effect, while we continue to 
staff and coordinate and get the legal checks on the entire 
memorandum. This new guidance seeks to clarify several Defense 
policies concerning prospective chaplains, and in particular 
ensures that the Department of Defense stays out of the 
business of approving religious organizations.
    One standard for a qualifying organization begins with the 
evaluation already defined by the Federal Government in 
awarding Internal Revenue Service 501(c)(3) tax-exempt status. 
Following the notification of the IRS 501(c)(3) status, we 
verify that the organization supports a lay constituency and is 
prepared to submit a qualified applicant for consideration.
    Finally, and most importantly, we do a thorough background 
investigation of the individual. I will turn to the security 
process in just a moment, but I want to mention the last 
standard required by the directive, and that is that a chaplain 
candidate must be willing to provide a personal affirmation to 
support the First Amendment rights of the entire population--
that is, military members and their dependents--regardless of 
the chaplain's faith or that of the individual the chaplain 
serves.
    As with all officers, the security screening of officer 
candidates is no less thorough than the review of their 
educational and professional credentials. Primary vehicles are 
the national agency check and a local agency check and a credit 
report, all conducted through the FBI and local agencies. More 
detailed reports are completed as indicated on a case-by-case 
basis. Applicants must also complete a personnel security 
questionnaire and are required to be able to hold a secret 
clearance in order to receive their commission. Services verify 
citizenship and perform medical screening and evaluations to 
determine overall fitness to serve.
    Finally, once on active duty, all officers, all militiary 
personnel, are continuously monitored in three ways. There is 
an ongoing day-to-day evaluation by their supervisor. There are 
annual performance evaluations and the commander's oversight of 
his or her operation. Each of these avenues, while possibly 
low-key and on a day-to-day basis, is a critical link in the 
chain of responsibility for enforcing performance standards.
    To our regret, we know that pre-employment screening is not 
fool-proof, whether it takes place in the public or the private 
sector. Military services strive to enforce the highest 
standards of personal conduct and performance by both officers 
and enlisted personnel.
    Despite the best efforts of leadership, we are all aware of 
examples where individuals in all military specialties fall 
short. It may be in relation to official duties, as in the 
theft of Government property or professional negligence by a 
physican or an engineer, or it might be an off-duty offense 
such as an assault or a burglary.
    While every such case is a tragedy for both the individual 
and the institutions, we believe our system is designed to 
minimize these instances and to maintain the highest standards 
of personal ethics and behavior which we require.
    People continue to be the most vital resource of the 
Department of Defense. Certainly, they are the most critical 
component of our readiness. We place intense demands on them. 
They are highly motivated, highly skilled professional service 
members. Currently, we have a force of over 2.3 million men and 
women serving around the world who have each sworn to protect 
our freedoms with their lives, if necessary. Over 4,000 of 
these are military chaplains who serve with our troops 
everyday.
    The reputation and excellence of the United States armed 
forces has been earned. We are the best in the world, and our 
allies, friends and neighbors strive to emulate the 
professionalism of our force. Thank you for providing me the 
opportunity to publicly recognize the men and women who serve 
so proudly.
    [The prepared statement of Mr. Abell appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much, Mr. Abell.
    Mr. Lappin, please.

  STATEMENT OF HARLEY G. LAPPIN, DIRECTOR, FEDERAL BUREAU OF 
                   PRISONS, WASHINGTON, D.C.

    Mr. Lappin. Good morning, Chairman Kyl and members of the 
Subcommittee. I am pleased to appear before you today to 
discuss the efforts the Federal Bureau of Prisons has taken to 
ensure we are preventing the recruitment of terrorists and 
extremists in our Federal prisons.
    We understand the importance of controlling and preventing 
the recruitment of inmates into terrorism. We also acknowledge 
that this is an evolving issue, especially as it relates to 
relationships between terrorism, certain radical or extremist 
ideologies, and the penchant of those who adhere to these 
ideologies to recruit others to their position. We continue to 
evaluate our policies and practices, and are certainly open to 
recommendations to make improvements in this area.
    We are aware of the particular vulnerabilities that inmates 
have to being recruited and converted to be terrorists, and we 
are very aware of the need to guard against the spread of 
terrorist or extremist ideas in Federal prisons.
    The Bureau of playing a significant role in our Nation's 
war on terrorism. Our practices in institution security and 
inmate management are geared toward the prevention of violence, 
criminal behavior, disruptive behavior, or other threats to 
institution security and public safety, including the 
radicalization of inmates.
    We have taken a number of measures over the last several 
years to ensure we are preventing disruption in our facilities, 
to include eliminating most inmate organizations in order to 
control the influence that outside entities have on Federal 
inmates, enhancing our information and monitoring systems, 
enhancing our intelligence-gathering and sharing capabilities, 
and more effectively identifying and managing inmates who could 
perpetrate disruption.
    Additionally, we have taken steps to strengthen the 
selection process and training of our chaplains, who work 
closely with the inmate population. Beginning in 1996, we began 
requiring that our imams meet the same educational standards as 
all of our chaplains, meet the requirement for an endorsement 
by a national organization, thereby allowing us to verify the 
validity and credibility of the endorsing body.
    We have been managing inmates with ties to terrorism for 
over a decade by confining them in secure conditions and 
monitoring their communications closely. All of these inmates 
are clearly identified and tracked in our information systems. 
We have established a strategy that focuses on the appropriate 
levels of containment and isolation to ensure inmates with 
terrorist ties do not have the opportunity to radicalize or 
recruit other inmates.
    The Bureau has worked diligently particularly over the past 
2 years to enhance our intelligence-gathering and sharing 
capabilities in order to ensure a seamless flow of intelligence 
information between our agency, the FBI, the National Joint 
Terrorism Task Force, and other law enforcement and 
counterterrorism agencies.
    In addition to containing and isolating inmates who could 
attempt to radicalize other inmates, we employ a second very 
important strategy in lessening the opportunities for 
recruiting inmates to radical causes. We provide inmates with a 
wide variety of programs that have proven to give them the 
knowledge, skills and abilities they need to become more 
productive, law-abiding citizens when they are released from 
prison.
    Among the many programs offered to inmates in the Bureau of 
Prisons are the religious programs we provide to the 
approximately 30 faiths represented within the population. All 
indications are that the overwhelming majority of inmates 
participate in religious programs in a positive, healthy and 
productive way.
    There are approximately 9,600 Muslim inmates, which is 5.5 
percent of the inmate population. The percent of Federal 
inmates who identify themselves as Muslim has remained very 
stable for close to a decade.
    We employ full-time civil service chaplains to lead worship 
services and provide pastoral care and spiritual guidance to 
the inmates, to oversee the breadth of religious programs, and 
to monitor the accommodation provided by contractual spiritual 
leaders and community volunteers.
    Our religious contractors and volunteers assist and augment 
the services of civil service chaplains. We screen all staff, 
volunteers, and contractors to avoid hiring or contracting with 
anyone who is likely to pose a threat to institution security.
    BOP civil service chaplains meet all the requirements for 
employment as Federal law enforcement officers, including a 
field investigation, criminal background check, reference 
check, drug screening, pre-employment suitability interview, 
and a panel interview. The BOP expects chaplains to provide a 
full spectrum of programs and practices across multiple 
religions. Chaplains, like all BOP employees, are strictly 
prohibited from using their position to condone, support, or 
encourage violence or other inappropriate behavior.
    The BOP is committed to providing inmates with the 
opportunity to practice their faith, while at the same time 
ensuring that Federal prisoners are not radicalized or 
recruited for terrorist causes. The support that has been 
provided by the FBI, the agencies represented on the National 
Joint Terrorist Task Force, and other components of the 
Department of Justice and many other members of the law 
enforcement and intelligence communities, have been invaluable 
in our efforts in this area.
    Chairman Kyl, this concludes my formal statement and I look 
forward to answering any of your questions.
    [The prepared statement of Mr. Lappin appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much.
    Let me begin by making a point and then asking Mr. Pistole 
to respond, if he desires to do so. It is beyond the purview of 
this hearing this morning to either examine any ongoing case 
under investigation or prosecution--I think we all understand 
that--or specific matters relating to counterterrorism which 
relate to primarily Mr. Pistole's responsibilities, which is 
not to say that there hasn't been significant coordination 
among the three of you with respect to counterterrorism aspects 
of the things that we are talking about. I guess I assume that 
those matters are being worked, but it is beyond the scope of 
our hearing today to talk about counterterrorism aspects of 
this, except in the most general sense.
    Mr. Pistole, do you have anything further to say about 
that?
    Mr. Pistole. Well, yes, Chairman Kyl. I appreciate your 
sensitivity to that issue, and you are correct in your 
assessment that there are a number of ongoing either 
investigations or proactive steps being taken, in concert with 
DOD and BOP, to assess and to determine the extent of the 
radicalization and the end use of whatever intelligence may be 
gathered by these individuals.
    Chairman Kyl. Right. I wanted to make that clear. Now, let 
me ask a question of you, Mr. Pistole, and also to Mr. Abell. 
What you have said regarding the Department of Defense process 
for determining who would qualify as a chaplain, in addition to 
the qualities of an officer which you made clear--you said that 
the new guidance which you just signed a portion of this 
morning will ensure that the Department stays out of the 
business of approving religious organizations. Then you say one 
standard for a qualifying organization begins with the 
evaluation already defined by IRS.
    Now, my question is to both of you whether or not the 
granting of a tax-exempt status under Section 501(c)(3) by the 
IRS would necessarily determine whether or not an organization 
is engaged in illegal activities or activities contrary to the 
defined public policy of the United States.
    Mr. Pistole. From an FBI perspective, that would have no 
bearing on whether we could either prove from a criminal 
investigative standpoint a person's activity in supporting 
terrorism or any linkage thereof. And just to clarify, the FBI 
is not in the protocol of the screening of the individuals who 
would become the chaplains or the translators, unless a 
background check for an FBI record would be conducted. That 
would be the extent of it.
    Chairman Kyl. Nor is the FBI involved with the IRS in 
determining the propriety of granting a 501(c)(3) designation 
to a particular group. Is that correct?
    Mr. Pistole. That is correct, Senator.
    Chairman Kyl. So, Mr. Abell, my question to you is, other 
than verifying that the entity has a tax-exempt status under 
the IRS Code, is there anything in the granting of that that 
would necessarily screen an organization with respect to the 
issues that we are discussing today?
    Mr. Abell. Not to my knowledge, sir. We have talked to the 
IRS about the processes that they use and they are more, it is 
my understanding, to determine that it is a valid organization 
that meets the tenets of the IRS Code.
    Chairman Kyl. Right. Now, while you say that you are going 
to stay out of the business of approving religious 
organizations, the next sentence in your statement says ``Our 
standard for a qualifying organization begins with the IRS 
determination.'' So I am a little unclear.
    If you are out of the business of approving and then you 
have a standard for qualifying the organizations, could you 
square that circle for me?
    Mr. Abell. I will try, Senator.
    Chairman Kyl. And my second question in that regard is what 
is the purpose for qualifying an organization?
    Mr. Abell. I understand. In the past, the Department of 
Defense had a process under which various religions, if you 
will, would apply for recognition by the Department of Defense. 
It was a process in which they had to come in and demonstrate 
in writing, and fill out an application and demonstrate in 
writing a number of criteria.
    At the end of that process, the Armed Forces Chaplains 
Board would make a recommendation to the person who sits in my 
position to approve that organization or that religion, if you 
will, as one that could provide chaplains to the armed forces.
    When I came into the office, we began to look at that and 
wondered what was the Department of Defense doing--what was our 
core competency to approve a religion. And as I look back over 
the history, as the Department searched for a way to sort out 
whether there was a religion, if you will, or a church behind 
an individual chaplain, that is what they were attempting to 
do.
    So we looked for an alternative. We started out about a 
year ago. We are very near the completion of that process, and 
we looked to the IRS as the agency that would tell us that it 
was a valid organization, that it had a structure and was 
formed to perform that function.
    After that, we look at it to say does it have a lay 
constituency. In the term of art, that means is there a church 
out there, is there a group of people who come to these people 
to meet and practice their religion. And then do they have 
candidates who might come forward to be considered to be a 
chaplain in the armed services? So that is sort of three steps 
at that point. The point I would like to make is that once you 
have made it through those three hurdles, what you have earned 
is an application to come to the military.
    Chairman Kyl. If I could, will you be soliciting 
applications from groups or will you simply passively accept 
applications and then go through this process? What is the plan 
in that regard?
    Mr. Abell. The groups approach us when they have candidates 
that they would like to press forward or present for 
consideration to be a chaplain. It is not beyond the realm that 
we might go seek--if we had a constitency within our armed 
forces and had no organizations that already come forward, we 
might go seek that. In fact, as a result of the last several 
months of activities, we are looking around to see if there are 
organizations that might provide us Muslim chaplains other than 
the two that currently provide it.
    Chairman Kyl. So would it be fair to say that no longer 
will it be the Department of Defense policy that one or two 
specific organizations would have the sole authority to approve 
or to nominate members to the chaplaincy?
    Mr. Abell. That is true.
    Chairman Kyl. And would that be one of the biggest changes 
in the policy that you are moving toward adopting?
    Mr. Abell. I think that certainly is a major part of it. 
From a purely theoretical view, I would have argued that those 
two folks, those two organizations never were granted in any 
way sole authority, but de facto they are the only two who have 
provided Muslim chaplains to date.
    Chairman Kyl. Do you know whether or not there were 
attempts by other Muslim clerics or other groups to support 
Muslim clerics who attempted to be nominated for officer status 
in the U.S. military who were turned down because they weren't 
sponsored by those two organizations?
    Mr. Abell. No, sir, none, to my knowledge.
    Chairman Kyl. Now, Mr. Lappin, I don't want to let you off 
the hook. I have just got another minute or so and I wanted to 
begin to get into some of the things that you had to say.
    I am unclear based on your testimony what the policy of the 
Bureau of Prisons is going to be now. You talk about the 
qualifications, which include as number four endorsement by a 
recognizing endorsing organization. What I would like to have 
you address is kind of the same questions that I put to Mr. 
Abell.
    Who are those endorsing organizations in the case of the 
Islamic chaplains or clerics, and are there any changes that 
have been made in your policy in the last few weeks?
    Mr. Lappin. Yes, sir. It has not been our practice to go 
out and ask organizations to recruit chaplains for us.
    Chairman Kyl. It has or has not?
    Mr. Lappin. It has not been.
    Chairman Kyl. It has not.
    Mr. Lappin. We have an open and continuous advertisement 
for chaplains throughout the country and anyone can apply. They 
are then responsible for identifying an endorsing agency, but 
they all must first meet the minimum requirements for a Federal 
law enforcement officer, which I mentioned included screening, 
an interview, a panel interview, field investigation check, 
criminal history check, vouchering of employers over the last 5 
years, drug screening, and certainly a citizen of the U.S. or a 
legal resident.
    Beyond that, they must have a B.A. or a B.S. from an 
accredited college, a master's of divinity, or 90 semester 
hours towards those credits, and a minimum of 2 years of 
ministry experience, and then an endorsement. An endorsement is 
just a small portion of, I guess, the application process.
    When they bring forth an endorsing agency, we then go to 
the endorsing agency and ask them to provide to us support 
justification as to why there should be an endorsing agency, at 
which time we then investigate, and now coordinate closely with 
the FBI and the other National Joint Terrorism Task Force to 
ensure who we are discussing these issues with.
    Again, they are attesting to the fact this individual is 
suitable for ministry in this area. They assess or they provide 
us input on their experience with this individual and the 
individual's experience and that they have no present or past 
legal or moral barriers to serving as a chaplain. So, 
collectively, all those things go into the process of selecting 
a chaplain. Our chaplains are not selected by the chaplaincy 
corps. They are then selected by an administrator who oversees 
the institution or the region, so they are not being selected 
by the chaplaincy corps.
    Chairman Kyl. We are going to turn now to Senator 
Feinstein, but let me just ask you for a yes or no answer. In 
the past, have you used as an endorsing organization the 
American Muslim Armed Forces and Veterans Affairs Council, the 
Islamic Society of North America and its Graduate School of 
Islamic Social Sciences?
    Mr. Lappin. We have used ISNA and AMC or AMF. We have not 
used the others because no one has come forth with them as an 
endorsing agency.
    One individual did bring forth, I believe, the Veterans. 
They have failed to send us the information so that we could 
verify their status as an endorsing agency.
    Chairman Kyl. Thank you.
    Senator Feinstein?
    Senator Feinstein. Thank you very much, Senator Kyl. I 
would like to follow up on your questions. We talked about 
three endorsing agencies. You have just mentioned them: the 
Islamic Society of North America, the American Muslim Armed 
Forces and Veterans Affairs Council, and the Graduate School 
for Islamic Social Sciences.
    Now, Mr. Abell, do I understand it that the Defense 
Department will no longer use those organizations as endorsing 
organizations for chaplains?
    Mr. Abell. No, ma'am. That is not correct. They won't have 
exclusive endorsing rights, if you will. Recognizing that they 
are under investigation, we are seeking others, and should 
these organizations be determined to have violated their 
principles or to somehow be indicted, then we would--the 
members of those--the chaplains who were endorsed by those 
folks would have to find another endorsing agency.
    Senator Feinstein. Do you know who funds those 
organizations? Do you know where the money comes from?
    Mr. Abell. Only what I read in the papers, ma'am.
    Senator Feinstein. Let me ask the same question to Mr. 
Lappin. Are you going to continue to use those three 
organizations? And, secondly, do you know who funds them?
    Mr. Lappin. I am not familiar with who funds them. We have 
not hired any Muslim chaplains since August of 2001. We 
probably will not hire any, at least from these endorsing 
agencies, until the investigations are completed.
    Senator Feinstein. And if it was shown that they were 
funded by Saudi Arabia and that they promoted the religious 
beliefs of the extremist Wahhabi sect of Islam, would that 
change your view about these organizations?
    Mr. Abell. Yes, ma'am. I think that that would cause us to 
cease to recognize those organizations, and then, as I said, 
the individual chaplains, as long as they had maintained their 
oath and their conduct and performance had been outstanding, 
they would have an opportunity to find another endorsing 
agency.
    Senator Feinstein. Well, I might just say that some experts 
have said that they are funded by Saudi Arabia, and I would 
like to ask that you determine this and let this Subcommittee 
know if that, in fact, is correct. And I would like to know 
what the policy would be about having militant Wahhabists as 
chaplains in either the Bureau of Prisons or our Defense 
facilities. If you could answer that, that would be great.
    Mr. Lappin. Well, I would agree, if we received that type 
of information about an endorsing agency, we would certainly 
change our position on using them as an endorsing agency in the 
future. And as I said, we do not plan to hire any chaplains, 
Muslim chaplains at this time who are being referred by an 
endorsing agency that is under investigation.
    Senator Feinstein. I am asking you to do a little bit more 
than just be passive and receive. I am asking that you find 
out.
    Mr. Lappin. We will do that.
    Senator Feinstein. And, Mr. Abell, will you do that as 
well?
    Mr. Abell. Yes, ma'am. As you know, the Department is not 
investigating. We turn to our colleagues in the Department of 
Justice for that. But we are in communication with them over 
this.
    Senator Feinstein. Okay. Now, I would like to ask another 
question along a slightly different line. Two translators at 
Guantanamo--former taxi driver Ahmed Mahalba and Air Force 
senior airman Ahmed Al-Halibi--both have been arrested. And I 
believe customs inspectors found classified information in 
Mahalba's luggage, and Al-Halibi allegedly tried to pass 
sensitive information to Syria.
    The Boston Herald has reported that both Mahalba and Al-
Halibi had been hired even though Mahalba had financial 
problems and Al-Halibi had already been investigated for making 
anti-American statements.
    In an article by the Cox News Service, Kevin Henzell, a 
spokesman for the American Translators Association, said that 
under normal circumstances neither man would have been hired, 
but because there is such a demand for Arabic language 
speakers, the Government may have overlooked certain red flags.
    Thomas West, the head of the American Translators 
Association, was quoted as saying, ``They were desperate and 
sort of grabbing at straws. It just ignores the whole idea 
there are professional translators out there when you start 
grabbing taxi drivers.''
    Would you comment, please, Mr. Abell?
    Mr. Abell. Shortly after September 11, 2001, it became 
obvious to the Department of Defense, and I am sure the whole 
of the Federal Government, that we did not have sufficient 
numbers of Arabic linguists or translators or interrogators to 
prosecute the global war on terror to the extent that we were 
going to need them. Then what immediately followed was an 
intensive recruiting effort. In that recruiting effort, we 
looked to folks who had the ability to speak and would then--
either to translate or to interrogate, depending on their skill 
set.
    I think it is fair to say that folks were brought on with 
sort of interim-level checks and then the more detailed checks 
to follow, and I think the results of that are as we are seeing 
here. We have found a couple who were not as trustworthy as we 
had hoped initially. But there was an initial push. I think we 
all recognized that we did not have enough Arabic linguists 
already employed to meet our requirements.
    Senator Feinstein. Now, I understand that some of the 
civilian translators at Guantanamo, including Mr. Mahalba, are 
from military contractors, such as the San Diego-based Titan 
Corporation. What background checks and vetting do DOD 
contractors do on contract translators?
    Mr. Abell. We do use contractors as a means to hire 
linguists and interrogators. The Titan Corporation is among 
those. They run a background check, and then, of course, the 
military does a more detailed check. And as I said, in our rush 
to meet the requirements, the mere numerical requirements, I 
think folks were brought on based on those initial checks, and 
then the more detailed checks followed as time permitted.
    Senator Feinstein. Are you doing anything to change your 
procedure in this regard?
    Mr. Abell. Oh, yes, ma'am. We have a number of programs 
that we are implementing to bolster our ability to have 
linguists in a number of languages, not just Arabic, to include 
a new reserve program where the members would be a part of the 
various reserve components. We hope never to be caught in this 
position again, but we were.
    Senator Feinstein. Do translators at Guantanamo have free 
movement throughout the prison facility? I have been there so I 
have seen how it is set up, but can they move about and talk 
with prisoners at will?
    Mr. Abell. I have not been to Guantanamo since the global 
war on terror prisoners were brought there. It is my 
understanding that they do not, but that is an understanding, 
secondhand knowledge. I have not been there.
    Senator Feinstein. Because there is some testimony from a 
man by the name of Bill Tierney who worked as a translator at 
Guantanamo in February and March of 2002, and I believe he 
stated recently that interpreters who worked with guards could 
roam the facility unescorted, were able to speak one-on-one 
with detainees. So it would seem to me that that is worthwhile 
checking out. And could you please make available to the 
Committee the memo you referred to earlier?
    Mr. Abell. Yes, ma'am.
    Senator Feinstein. I would appreciate that.
    Thank you very much.
    Chairman Kyl. Thank you.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman. You know, I was 
raised to respect other people's religion, and I think that is 
important. I try to take my faith seriously, and I respect 
others who take their faiths seriously. But we need to think 
clearly here about some tendencies that are in certain parts of 
the Islamic groups that are radicalized that do not respect our 
freedom, they do not respect the liberty that we have, and they 
see other faiths as a threat, something that needs to be 
eliminated. A small group, but it is real, and we might as well 
understand that.
    Mr. Abell, I would like to just pursue a little bit this 
endorser concept. As I understand it from my friend, who is a 
Methodist chaplain, he remains a member of the Methodist Annual 
Conference. He has to be in good standing of that conference. 
If they require educational programs, he has to maintain those. 
And if for some reason he loses that imprimatur of the 
conference of the Methodist Church, then he may not be able to 
continue as a chaplain. Is that correct?
    Mr. Abell. Yes, sir.
    Senator Sessions. So an endorsing organization has a 
continuing involvement with the person that they endorse. It is 
not just, okay, we recommend the chaplain to the military or to 
the prison system. This person has to remain loyal to that 
group to some degree. And if the group is not a healthy 
organization, doesn't that add an additional threat to the 
military or to the prison system?
    Mr. Abell. Yes, sir. It certainly is a concern.
    Senator Sessions. Mr. Lappin?
    Mr. Lappin. Yes, it is, sir. In fact, if that were the 
case, our chaplains can change endorsing agencies. We would 
probably ask them to do so.
    Senator Sessions. But the difficulty is that if your 
endorsing agency is not legitimate, then we have got a problem. 
Senator Kyl raised a question, and I think it is quite valid. 
Are you saying, Mr. Abell, that if the IRS says that an entity, 
a religious entity, is legitimate, therefore they are 
legitimate for the purposes of the Department of Defense?
    Mr. Abell. No, sir. That is one screen that we use. We rely 
on the IRS to have determined that this is an organization that 
has structure and meets their requirements. So that prevents 
you or me from creating the Church of the Texaco Star at the 
burned-out gas station or something and sending forth a 
chaplain. I hope there is no Church of the Texaco Star.
    Senator Sessions. I recall one fellow tried to have the 
Church of the New Song. He was a prisoner and wanted to have 
steak and wine as communion services twice a week and filed a 
lawsuit to that effect. So you are right. You can have bogus 
groups.
    Mr. Pistole, as a former Federal prosecutor who worked with 
the FBI, I am aware that there are Department of Justice 
regulations--I have not had a chance to look at them--that 
provide special cautions against investigating church groups. 
Is that still in the Department of Justice guidelines?
    Mr. Pistole. That is correct, Senator.
    Senator Sessions. And how does that--and I remember in this 
Senate we had a fuss, which shocked me, that an agent could not 
go into an open worship service and see if they were planning 
attacks on America. I think we got past that. But what are the 
restraints that constrain an agent when they do investigations 
if the entity is a church as opposed to some other secular 
corporation?
    Mr. Pistole. Well, Senator, as you are aware, the PATRIOT 
Act did change a lot of that for the FBI and other 
investigative agencies in terms of domestic investigations 
whereby if we have predication on an individual who goes into a 
mosque or a church or some type of religious facility that that 
person is somehow related to terrorist activity, then clearly 
we can have an undercover agent go in, a cooperative witness, 
somebody go in who is wired up and can record those 
conversations, can take down that information, and do 
everything that we can to prevent that person, whether it is an 
imam, a cleric, whoever it may be, from inciting others to 
violence.
    Now, obviously there is a fine line between extremism, 
which is protected under the First Amendment, obviously, and 
the ability to incite jihad in the commonly accepted term as 
opposed to, you know, spiritual development, as it has 
historically been. So we can do that, and there is no 
limitation from our perspective. In fact, we--
    Senator Sessions. It is still more difficult, is it not, 
for you to--or is there still a hangover sense that causes you, 
maybe rightly, to be less aggressive in investigating an entity 
that has religious connections and claims itself to be a church 
as opposed to a group of drug dealers or Mafia types?
    Mr. Pistole. In all probability, I would like to think not, 
given everything that has happened since 9/11, but, sure, if 
there is a situation where there is some concern about the 
religious aspects, an individual agent may have some 
reservations. But as head of the Counterterrorism Division, I 
can tell you that the policy is that there is no restriction 
there, as long as we have the predication on the individual. 
Obviously, we are not investigating the institution, the 
religion, anything like that.
    Senator Sessions. With regard to the FBI and your 
investigations and Mr. Abell's problem of endorsing 
organizations, I understand Mr. Abell to suggest that if there 
were an indictment or a conviction, he would not use somebody 
as an endorsing organization. But as a background and as a 
security action, we are not required to take that risk, are we? 
When you do a background check on a person for a sensitive 
position, you do not have to have enough evidence to indict 
them before you say we are just not too sure we ought to hire 
this person? Are we miscommunicating here somewhere, Mr. Abell? 
Do you see the point I am trying to make?
    Mr. Abell. I do, and perhaps I did not use the term in the 
same sense that you would, sir, as a former prosecutor. If the 
FBI advises or the Department of Justice advises the Department 
of Defense that this is not an organization that we ought to 
accept, then we would not, whether that is added to the list of 
terrorist organizations or some other sort of lesser 
classification.
    Senator Sessions. Okay. Thank you. I am sorry, Mr. 
Chairman.
    Chairman Kyl. We are not sticking exactly to the 5-minute 
rule, but give or take a few minutes, and so I appreciate that 
very much.
    Senator Schumer?
    Senator Schumer. Thank you, Mr. Chairman.
    First, I did want to take the indulgence of the Committee 
to announce that I have two guests here today. They are my 
parents. They are in the audience. I cannot see them, but I 
have been told they are here. They are here with their bridge 
club from New York. Hi, Mom, hi, Dad, wherever you are.
    Chairman Kyl. Could we recognize you to stand, please? It 
is not often that the parents of a Senator--well, thank you.
    [Applause.]
    Chairman Kyl. This will not count toward your time, Senator 
Schumer, but we could not even get two seats together. It is 
just like on the airplane.
    Senator Schumer. Okay. Well, thank you, Mr. Chairman.
    First, I want to say that I am heartened by what we have 
heard here today because, as you know, this has been a concern 
of mine in both the Bureau of Prisons and the military for a 
while. But I would like to get some details. There are two 
aspects here: one is outreach, and one is dealing with groups 
that should not be inside.
    In terms of outreach, I think you said, Mr. Abell, that the 
armed forces were going to make an effort to reach out to other 
Muslim groups. We have hundreds and hundreds of Christian 
chaplains of different denominations, and that is great. And 
somehow it seems that at least the people--we do not exactly 
know--I do not think anyone has interviewed the ten Muslim 
chaplains that are in the--are there ten in the Bureau of 
Prisons?
    Mr. Lappin. Ten in the Bureau of Prisons.
    Senator Schumer. Or I don't know how many there are in 
the--
    Mr. Abell. Twelve, Senator.
    Senator Schumer. Twelve in the armed forces, if they have 
any kind of diversity, but the groups that are filtering them 
through may not. Can you just outline what your outreach is 
going to be? And are you going to look particularly for Sufi 
and Shia and Sunni Muslim groups? Some of whom after I got 
involved in this contacted my office on their own and said they 
would be interested in this kind of thing.
    Mr. Abell. Senator, from the Department of Defense 
perspective, we are going to--we are, in fact, have already 
begun looking for organizations that would meet the criteria 
who could be sponsoring or endorsing organizations, without 
regard to the particular sect. We had not targeted in any way 
one sect or another or even--
    Senator Schumer. And it seems--and this may be true of 
prisons as well. It seems you just sort of--these two groups--
how did it come to be that these two groups became the only two 
groups that were involved? Is it that they were the only ones 
that came forward and the knowledge of Islam in America was 
such that nobody said, well, just as we know for sure there are 
Baptists, Methodists, Eastern Orthodox Catholics, and those are 
different forms of Christianity, that we sort of did not know 
that there were different forms of Islam and that only--what 
happened here? These two groups, did you approach them, BOP and 
military, or did they approach you and you said, well, if you 
are 501(c)(3) you are fine and you will go through those other 
checks? Mr. Abell first, and then Mr. Lappin.
    Mr. Abell. In the case of the Department of Defense, these 
are the only two groups who have come to us and asked to be 
recognized.
    Senator Schumer. They came forward?
    Mr. Abell. Yes, sir.
    Senator Schumer. And it would sort of make sense that those 
who had the most passion about this or who might have another 
agenda would come forward, where others might not.
    Mr. Abell. Again, one of the things that is required of 
being a chaplain in the military is that the individual has to 
personally certify that they are pluralistic--
    Senator Schumer. I understand.
    Mr. Abell. --that they support the--
    Senator Schumer. Free exercise of religion, in other words, 
which is good, although, again, we have had instances where 
that has not happened. At least we know of those in some 
instances.
    Mr. Lappin. Yes, sir, we do not, again, go out and search 
out organizations or agencies to bring us candidates. 
Candidates come to us. They then bring with them an endorsing 
agency. My assumption is--we have had some of our chaplains for 
as many as 16 years, and in the 1980's and early 1990's, there 
were not that many Islamic organizations of a national level 
that could provide endorsement. So that is in part why we 
probably have more from ISNA than others.
    Senator Schumer. Well, it sort of happened sort of by both 
accident and not total familiarity with the Islam religion.
    Mr. Lappin. Yes, and we got to know them relatively well. 
We have gone out and done training with ISNA. They participated 
in our training. So we educated ourselves somewhat on a number 
of the endorsing agencies by our relationship with them beyond 
just the endorsing.
    Senator Schumer. Now, let me ask a second question. I take 
it it has become clear--and I know Senator Kyl alluded to 
this--that your criteria for including somebody are really not 
sufficient any longer, that just to have a 501(c)(3) and go 
through a routine background check is not enough, and you are 
going to--this is in terms of excluding groups that shouldn't 
be, not including groups that should be. Is that fair? I see 
both witnesses nodding their heads, but could they verbalize it 
so the recorder could get that down?
    Mr. Abell. Yes, Senator. We are going to continue our study 
of this until we can find a way that would hopefully avoid 
situations--
    Senator Schumer. And it is a difficult area because you 
want to have freedom of religion. I think Mr. Pistole even 
talked about the different meanings of the word ``jihad.'' 
There can be a religious type of jihad, which is all a thought 
process, which is protected by the First Amendment, and then we 
know there can be an action form of jihad, which is criminal 
and immoral and inhumane and everything else.
    The same with you, Mr. Lappin?
    Mr. Lappin. Yes, sir, I would agree. We are going to do 
everything--we are going to remain vigilant and exploring as 
much as we can about endorsing agencies. We will be working--
    Senator Schumer. But both of you admit that the existing 
criteria were not good enough, in retrospect.
    Mr. Lappin. Yes.
    Mr. Abell. Yes, sir.
    Senator Schumer. Okay. Next question. This really does 
concern me, the fact that a military chaplain led this 
delegation of soldiers on a trip to Saudi Arabia in 2001 that 
was sponsored by the Muslim World League, which, again, the 
CIA--that is an official Saudi organization, but the CIA has 
said it is a front for Al-Qaeda. What do you know about this, 
Mr. Abell? What is going on that you can tell us, given the 
constraints that the Chairman, of course, correctly mentioned 
that we do not want to interfere with an ongoing investigation? 
But this knocked my socks off. I was surprised it did not get 
more attention than it did. Could you tell us what you can 
about that?
    Mr. Abell. What I do know--
    Senator Schumer. It also says to me something is going on 
here. How did this chaplain get connected with the Muslim World 
League? Maybe it is innocent, maybe it is not, but it certainly 
ought to be looked into.
    Mr. Abell. Yes, sir. I do not know how this chaplain was 
connected with this organization. As for the service members 
who went, they asked for and were granted their ordinary leave. 
They were on leave status and thus able to travel as U.S. 
citizens without any further scrutiny by their commands or the 
military service. So I think what we knew about that at the 
time was almost nothing as an institution, as the Department of 
Defense or as the military service. The interesting--
    Senator Schumer. What does it make you think now?
    Mr. Abell. Well, as I was about to say, the interesting 
question becomes the connection of the chaplain to the 
organization. I do not believe we would get to the point where 
we would ask our soldiers, sailors, airmen, and marines to tell 
us what they wanted to do on their leave. So we may have 
instances where a service member goes on leave and--
    Senator Schumer. Well, are you going to question the 
chaplain and ask him how he got connected with this 
organization? Are you going to find out--
    Mr. Abell. I think that is the interesting question, yes, 
sir.
    Senator Schumer. Are you going to find out if these people 
just on their own, the members of the armed forces said, gee, I 
would like to go on a haj or it was suggested by this chaplain? 
Were there other chaplains suggesting it as well? Don't you 
think these are all relevant questions that we ought to know 
the answers to?
    Mr. Abell. Yes, sir. I wanted to try and separate the 
activities of the 50, 60 individuals with that of the--
    Senator Schumer. Who have a perfect right to go, obviously. 
Okay. I understand that.
    Finally, as you know, I have written both of your agencies 
for a while. Mr. Lappin, you are new on the job so you get 
exoneration here. I don't know long you have been there, Mr. 
Abell.
    Senator Feinstein. Long enough.
    Senator Schumer. Long enough, says Senator Feinstein. But 
why has it been that--you know, I do not expect the answers the 
next day, but I have really encountered very little cooperation 
in answers from both the military and the Bureau of Prisons in 
the letters I have written, in the concerns I have brought up 
here. And when I brought these up, maybe it was not as 
prominent as now, but we have had new instances of things 
coming up that are very, very troubling. What is going on? And 
can I find a liaison who my staff can call and get questions 
answered that either aren't classified or aren't concerning an 
ongoing investigation?
    Mr. Abell. Obviously, the answer to the latter question is 
yes. Let me--
    Senator Schumer. Who might that be?
    Mr. Abell. I am sure the Department would suggest that 
Secretary Moore would be your point of entry.
    Senator Schumer. I do not need someone that high up. I just 
need someone who knows the answers.
    Mr. Abell. But I am sure that our Inspector General, Mr. 
Schmitz, would come see you as well and be happy to talk to 
you.
    Senator Schumer. Okay. Well, if you could just get me the 
name of a liaison, and day to day when we find out these 
things, we always want to check them out and be careful with 
them.
    Mr. Abell. Yes, sir.
    Senator Schumer. How about you, Mr. Lappin?
    Mr. Lappin. I apologize it has taken so long, sir. I will 
check into it. I understand the letter was sent to the IG. We 
will follow up with them today or tomorrow and try and get you 
a response as quickly as possible.
    Senator Schumer. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Schumer.
    Senator Durbin, before I call on you, could I ask your 
indulgence for just two quick things?
    First of all, I think it is a good idea to have Secretary 
Schmitz come to us. What I would like to arrange is for a 
private briefing of the Committee because there could be both 
classified and ongoing investigation matters, given his 
position, but I think that would be a very useful thing for our 
Committee.
    Senator Schumer. A great idea, Mr. Chairman.
    Chairman Kyl. And with your suggestion, Mr. Abell, we will 
contact Mr. Schmitz for that purpose.
    Secondly--and, again, Senator Durbin, might I ask your 
indulgence? Senator Schumer asked a question of you, Mr. Abell, 
about whether you were aware of any other organizations that 
sought to be recognized by the Department of Defense for the 
purpose of denominating military chaplains. I just quote from a 
news magazine article and ask this question. This is from the 
October 27th issue of National Review in an article by Kate 
O'Byrne, and I will read the paragraph on page 32:
    ``A moderate Muslim organization aligned with Shiite Islam 
also claims to have been ignored by the Defense Department. The 
Universal Muslim Association of America has tried 
unsuccessfully to be approved to certify Muslim clerics. Its 
spokesman explains, `The Defense Department should be aware 
that there are two main forms of Islam, Sunni and Shiite, and 
that it was only Wahhabism that is being represented.'''
    Are you familiar with that?
    Mr. Abell. Senator, I read Ms. O'Byrne's article this 
morning about 8 o'clock, and so I have had no opportunity to 
look into those statements. I do not necessarily agree with 
everything that I read in that article, but certainly we will 
check out whether or not we have ignored one or more--
    Chairman Kyl. That is an allegation that would be 
inconsistent with what you said.
    Mr. Abell. Yes, sir.
    Chairman Kyl. So you will get back to us with your 
response.
    Mr. Abell. Absolutely.
    Chairman Kyl. Thank you, Senator Durbin. You have the 
floor.
    Senator Durbin. Mr. Chairman, thank you. Not being a member 
of this Committee, I am attending more of your sessions more 
often because, frankly, you have very important issues and very 
relevant to our discussion about the war on terrorism. And I 
wanted to also greet Mr. and Mrs. Schumer and tell you that 
your son, whom I have lived with for 11 years, is a great 
roommate. So you raised him well.
    [Laughter.]
    Senator Schumer. Don't tell them about my neatness habits.
    Senator Durbin. No, I will not talk about that.
    It strikes me that when we talk about this issue in its 
obvious extreme, it is easy. When there are people who are 
seeking to be chaplains or religious counselors who have a 
criminal record or espouse violence, who collect information 
and use it against our Government, these are the clear cases.
    What worries me, though, is when we start setting standards 
for acceptable chaplains and acceptable religions, I think we 
get into a very difficult area. If I read correctly your Code 
of Ethics, the American Correctional Chaplains Association--I 
do not know if you have all assumed that that guides your 
decisions or is part of your decisions. Have you had instances 
in the past where certain religious groups have been excluded 
even though there is no clear evidence that the person asking 
to be a chaplain has anything in his or her background that 
would disqualify them? Mr. Lappin?
    Mr. Lappin. Not to my knowledge, but we can certainly check 
on that. Again, we have 231 chaplains, and we scrutinize all of 
those applications very closely. But, again, not to my 
knowledge that we have excluded anyone.
    Senator Durbin. If I understand the standards, it is 
basically a certain level of education and certification by 
their religion, and then you look to their personal resumes to 
see if there is anything. But I worry about what is surfacing 
now. Senator Sessions made reference to what some people are 
calling religion. In my home State, there is something called 
the World Church of the Creator, which is under investigation 
and indictment, and they claim to be a religion. But they 
espouse violence; they are anti-Semitic; they are racist. And I 
was just curious as to what the process would be if someone 
said, ``I am a minister of this church and would like to be a 
chaplain in a Federal prison,'' and some prisoners said, ``Yes, 
we would like to have such a person as chaplain,'' How does 
that work?
    Mr. Lappin. Well, typically, this begins from the inmates. 
Typically, inmates will come in and say, ``I am a member of 
this church or practice this religion,'' and we do a thorough 
investigation before we determine that that, in fact, is a 
religion that we would recognize in the prison setting. So, 
typically, it comes from the other direction, but we have a 
process by which we make that assessment and determine that.
    Senator Durbin. What is the standard for whether you would 
recognize--you said that you would recognize in a prison 
setting. What I am trying to get to is the hard part of this 
question. Can you, will you draw a line and say this is either 
not a religion or is a religion that we find unacceptable to 
minister to inmates?
    Mr. Lappin. Yes, we would. I believe we would, and we can 
provide to you how we determine what is a religion as it 
pertains to requests from inmates that might lend you an idea 
of how we make that assessment.
    Senator Durbin. Mr. Abell, could you address that as well 
in terms of how you would deal with this concept of defining 
religions and ruling certain religions unacceptable?
    Mr. Abell. Senator, this is the precise reason that a year 
ago we began to look at how we deal with endorsing agencies, 
and as I explained--maybe before you arrived--there was a point 
at which the Department approved religions, if you will, and 
that was a thing I was trying to get away from, couldn't find a 
core competency in the Department of Defense to approve a 
religion.
    We have had a number of religions that have come forward to 
us that wanted to provide chaplains whose practices were not, 
in my personal view, anyway, consistent with good order and 
discipline within the military services. Those religions have 
not yet made it through the process, either the IRS process or 
the old Department of Defense process where they would be 
recognized. Were they, there is a second test, which is: Do the 
services need them, much like his population, only this would--
in the Department of Defense this is usually a determination at 
the service level. It may have bubbled up from the deck plates, 
if you will, but the service would determine whether it needed 
a chaplain from that particular religion or not based on what 
it knew about the members within its service. But it is very 
difficult, but we do hold the standard of good order and 
discipline as well.
    Senator Durbin. Have you been challenged in any of these 
decisions by these religions in court as to whether or not you 
could exclude them?
    Mr. Abell. In the history of the Department, I do not know. 
Lately, not yet. We certainly would anticipate that will come.
    Senator Durbin. Mr. Lappin, do you recall any challenges?
    Mr. Lappin. I know we have been challenged by inmates when 
we determine that their religion is not one that we would 
recognize.
    Senator Durbin. And has there been a court determination on 
any of these decisions?
    Mr. Lappin. I am not sure, but we can certainly check into 
that and provide you what we know.
    Senator Durbin. If you would.
    Mr. Chairman, I think that some of these are fairly 
obvious. If you are dealing with a minister, someone who has a 
questionable background, or a religion which clearly espouses 
violence and terrorism, I think these are all fairly easy 
calls. But there is a very difficult gray area here in terms of 
what is an acceptable religion in a country that tries to 
embrace diversity. And I applaud you for your efforts to try to 
draw that line. I think it is increasingly difficult.
    Thank you.
    Chairman Kyl. Thank you very much, Senator Durbin.
    If there are no other questions from the dais here, I would 
like to thank our panelists. Obviously, this is an ongoing 
matter, both for us and for you. We will be interested in 
getting further reports about the evolution, particularly, Mr. 
Abell, of the Department of Defense's program here and would 
hope that you would provide that to us in writing from time to 
time or as it is appropriate. We will follow through on the 
other matters that I indicated. We will keep the record open 
until the end of this week for any other additional comments 
you would have or any questions that members of the panel might 
have.
    Senator Sessions. Mr. Chairman, I would just follow up with 
a written question, but I am curious about what if a chaplain 
celebrates those who attacked on 9/11 as martyrs or a chaplain 
that not only is himself a pacifist but actually preaches to 
soldiers they should also be pacifist. I would like to hear 
your position in the Department of Defense. You do not need to 
take that time now, but how you deal with that, because I think 
some of the messages can also be against the good order and 
discipline of the service. We just do not need to be too timid 
about this. I do not think we need to be timid about who we pay 
in our prisons and our military.
    Chairman Kyl. Thank you, Senator Sessions, and you can get 
that information to us in writing, obviously.
    Thank you all for being here.
    Chairman Kyl. Now I would like to invite our second group 
of panelists forward for what I know is going to be some very 
interesting testimony. There are two panelists but a third 
member will be joining us at the table.
    The first panelist is Dr. Michael Waller. Dr. Michael 
Waller is testifying in his capacity as the Annenberg Professor 
of International Communication at the Institute of World 
Politics, a graduate school of statecraft and national security 
in Washington, where he teaches courses on propaganda and 
political warfare. As a journalist and author, Dr. Waller has 
written about terrorism and political warfare for 20 years and 
conducted a pioneering study published in 1991 of the U.S.-
based political and fundraising networks of international 
guerrilla and terrorist groups. He has been working with the 
Center for Security Policy on tracking Islamist terrorist 
groups and their domestic political networks in the United 
States, and his testimony today will place the issue of the 
Islamist prison and military chaplain recruitment into a larger 
context. He is testifying as an expert witness on the political 
warfare operations of terrorist organizations and not on Islam, 
I would make it very clear.
    Chaplain Paul E. Rogers is president of the American 
Correctional Chaplains Association, which represents over 450 
Federal and State prison chaplains around the country. Mr. 
Rogers is a former chaplain in the U.S. Air Force and has been 
Archdiocese of Milwaukee representative to the Christian-
Islamic Dialogue for 10 years. He has been employed by the 
Wisconsin Department of Corrections since 1989. And Chaplain 
Rogers is accompanied by Chaplain A.J. Sabree--I hope I am 
pronouncing that correctly, sir--the treasurer of the American 
Correctional Chaplains Association and the former Chair of the 
American Correctional Chaplains Association Certification 
Committee. Mr. Sabree, a Muslim imam, is assistant director of 
chaplaincy services at the Georgia Department of Corrections 
and supervises chaplains at 104 facilities throughout Georgia. 
He has been with the department since 1975, is based in 
Atlanta, has 28 years of experience as a clinical chaplain, 
including 15 years in his current position, and is based in 
Atlanta.
    Thank you, all three of you, for being here. Dr. Waller, 
the floor is yours.

      STATEMENT OF MICHAEL WALLER, ANNENBERG PROFESSOR OF 
   INTERNATIONAL COMMUNICATION, INSTITUTE OF WORLD POLITICS, 
                        WASHINGTON, D.C.

    Mr. Waller. Thank you, Chairman Kyl and members of the 
Subcommittee, for having this hearing and for inviting me to 
testify on sort of connecting the dots about how the chaplains 
issue connects with the larger foreign-funded efforts to 
penetrate our society on behalf of people who wish us ill.
    I have a very lengthy prepared statement, which I will 
leave for the record, but what I would like to do is to scan 
over it in the time I am allowed. My written testimony 
discusses the foreign entities and individuals who created the 
Muslim Chaplain Corps for the United States military, the 
parties responsible for nominating and vetting them, the issue 
of state-sponsored penetration of the U.S. military and 
prisons, challenges to our ability to understand the nature of 
the problem, and the larger context of which the chaplain 
program is part.
    In short, this is what my colleagues and I have found over 
the past two and a half years: first, foreign states and 
movements have been financing the promotion of radical, 
political Islam, which we call Islamism, within America's armed 
forces and prisons. It is fundamentally a political movement 
with a lot of religious overtones. It seeks political power and 
it demands a radical change in our legal system and, in fact, 
in our Constitution. That alien ideology preaches intolerance 
and hatred of our society and our culture and the principles 
enshrined in our Constitution, and adherents to the ideology 
directly and indirectly spawn, train, finance, supply, and 
mobilize terrorists who would destroy our system of Government 
and our way of life.
    They have created civil support networks for terrorists at 
home and abroad, many of which operate entirely legally, 
providing material assistance, fundraising operations, 
logistics, propaganda, legal services in the event of arrest or 
imprisonment, and bringing political pressure to bear on 
policymakers and opinion leaders grappling with 
counterterrorism issues.
    As a society, we have not understood the problem. I think 
part of the reason is that some of our leaders, particularly in 
the FBI and elsewhere, have not wanted to forthrightly confront 
the issue. It was noted that someone did a content analysis of 
the FBI Director's speeches and could not find where they had 
``Islam'' and ``terrorism'' in the same sentence. The FBI has 
repeatedly come to hearings of this Subcommittee and not given 
straight answers, not even discussed, as in the June 26th 
hearing, the issue of the hearing. So we have done a disservice 
in terms of public understanding.
    This also comes on attempts by supporters of some of these 
terrorist groups to stifle debate. Our research also shows that 
the most virulent of the denunciations of the anti-terrorism 
processes and the critics of these movements and these hearings 
have come from groups that themselves are tied to or funded by 
foreign Wahhabi entities, including the Muslim Brotherhood, by 
the way. As we will see, a reported Muslim Brotherhood member 
was arrested a couple of weeks ago, Abdurahman Alamoudi. He 
built the political pressure groups in Washington, the main 
ones, on a lot of Muslim issues, the radical Muslim issues, and 
he also created the Muslim Chaplain Corps in the U.S. military.
    We have to keep this in the larger context. This is part of 
40 years, spans 40 years of Wahhabi political warfare as an 
element of international religious proselytizing and, some 
would argue, political warfare of which religious proselytizing 
is an element. And the strategic goal is twofold: to dominate 
the voice of Islam around the world, and to exert control over 
civil and political institutions around the world through a 
combination of infiltration, aggressive political warfare, 
charitable programs, and violence. And we see this happening 
globally--Pakistan, Egypt, United Kingdom, continental Europe, 
in Bosnia-Herzegovina, in Kosovo, Russia, Turkey, Southeast 
Asia, parts of Africa and Latin America, and here, too.
    To connect the dots, unlike our past adversaries, this 
terrorist enemy is often organized horizontally. We are used to 
dealing with vertical hierarchies so you can round them up just 
by following the hierarchy up to a central command and control. 
With some of the entities we are talking about, there is indeed 
a central command and control. But with others, it is networks 
so that even if you remove the leaders of those networks, the 
networks still flourish. They operate autonomously. They 
operate among themselves. Some have different ideologies, but 
they do cooperate with one another. They make common cause with 
one another, and this challenges previous intelligence 
assumptions that certain groups of Muslims, for example, would 
not collaborate with other types of Muslims, or even non-
observant Muslims.
    The vertical structures include the so-called Wahhabi lobby 
here. This is a loose term to describe mainly Saudi and other 
foreign-funded groups, funded by Saudi Arabia, funded by Qatar, 
and other Wahhabi sources to promote these movements in the 
United States.
    Now, what I am talking about is all from open sources, and 
it is sort of extraordinary that the FBI cannot offer straight 
testimony on this. But what we have found are two components 
for this campaign. The first is operational, and it includes 
fundraising, logistics, material support, infiltration, 
training, indoctrination, intelligence collection, 
counterintelligence, security, and legal support for terrorist-
oriented organizations. The second is political: grass-roots 
organizing, ideological and political mobilization, and a 
Washington political presence to show national voices, to 
change the U.S. laws, to provide a mainstream face for their 
extreme agenda, and to attack their critics.
    In the words of an Al-Qaeda operative, Khalid Shaikh 
Mohammed, in the June 23rd Newsweek, Al-Qaeda has chosen to use 
``mosques, prisons, and universities throughout the United 
States'' to foil heightened security measures across the 
American heartland and to recruit people who don't fit the 
terror profile so that they can more actively promote the 
agenda of Al-Qaeda or the interests of other organizations, the 
organizations of those groups.
    I see by the light I have run out of time, so I will 
reserve my other comments for later.
    [The prepared statement of Mr. Waller appears as a 
submission for the record.]
    Chairman Kyl. Well, thank you. I want to thank you for your 
written testimony, which is extraordinarily complete, and we 
appreciate that very much and we will have some questions after 
a moment.
    I hesitate to say ``Mr. Rogers.'' ``Chaplain'' would be a 
better way to refer to you, and I do that, sir. Thank you for 
being here.

 STATEMENT OF PAUL E. ROGERS, PRESIDENT, AMERICAN CORRECTIONAL 
 CHAPLAINS ASSOCIATION, WAUPUN, WISCONSIN; ACCOMPANIED BY A.J. 
SABREE, TREASURER, AMERICAN CORRECTIONAL CHAPLAINS ASSOCIATION, 
                        ATLANTA, GEORGIA

    Mr. Rogers. Mr. Chairman, Senator Kyl, Subcommittee 
members, thank you for this opportunity to be here. I am Paul 
Rogers, president of the American Correctional Chaplains 
Association and staff chaplain at Dodge Correctional 
Institution in Wisconsin. I have with me here today Imam A.J. 
Sabree, treasurer of the ACCA, the keeper of the checkbook. We 
trust him. And, of course, he is also the past Chair of the 
ACCA Certification Committee and assistant manager of 
chaplaincy services for the Georgia Department of Corrections.
    I would also like to direct your attention to the letter 
for the record of this Committee that has been separately 
submitted by Chaplain Gary Friedman, Chairman of the Jewish 
Prisoner Services International and our ACCA Communications 
Committee Chair.
    The American Correctional Chaplains Association represents 
correctional chaplains across the country from all different 
faith groups. In 1886, we were the first professional affiliate 
of the American Correctional Association. We share in the 
mission of protecting society by safely securing and hopefully 
rehabilitating inmates.
    Let me begin by stating that the vast majority of 
chaplains, including Islamic chaplains, support the goal of 
providing homeland and national security.
    With over 2 million men and women incarcerated across the 
country, terrorist recruitment in prisons and jails is indeed a 
potentially serious concern for our country. The religious 
climate in prisons today reflects that of our society with some 
very important distinctions. The religious diversity found 
across the United States is indeed seen in these prisons. We 
have well-known, mainstream religious represented in our prison 
populations, but we also encounter the lesser-known minority 
faith groups. We come in close contact with representatives of 
all these faith groups and religions.
    A distinction to be made is that since prison society is 
lived in a closed community, we see firsthand how these faiths 
respond to members who are in prison. We know our local faith 
communities and their leaders and consult them to meet 
religious requirements of their members. Equity demands that we 
treat all religions fairly. It may be because of prisons being 
isolated and closed communities that minority faith groups may 
appear more prominent in the general prison population than 
they do in the rest of society. Another reason is that racial 
minorities are found in prison at a greater percentage so that 
those racial minorities with a particular faith have greater 
numbers in prison.
    Religious programs in prisons are very active. Professional 
staff chaplains administer programs to respond to the religious 
needs of all inmates. Of civilians who choose to participate in 
various prison activities, the vast majority are religion 
program volunteers. While this may be true in most 
jurisdictions, there are areas of the country where those 
religious needs, or even rights, may be ignored or unmet due to 
lack of resources, distance from religious service providers, 
and poor administration. It is when inmates feel that they are 
not being treated fairly that disturbances may occur. Not all 
inmates may seek administrative or judicial relief to address 
perceived wrongs. This is one of the reasons why having a 
professional correctional chaplain is essential to good 
correctional management.
    Regarding reports of prisons being infiltrated by 
terrorists or terrorist organizations via prison religious 
programs, I think these have been blown out of proportion. Yes, 
some relatively minor situations have been identified, but they 
were stopped before escalating to dangerous levels. 
Nonetheless, what should concern us are conditions that allow 
these kinds of things to happen.
    Unqualified chaplains and/or inadequate supervision of 
programs and volunteers allow opportunities for abuse of 
religious programs. When these conditions are present, you have 
the potential for problems. The most effective way to counter 
such conditions is to employ certified correctional chaplains 
to administer religious programs. Why is this not being 
universally done?
    There are 50 States, the Federal prison system, and 
thousands of regional, county, and local jurisdictions, all 
with differing ideas on what chaplaincy is and a variety of job 
requirements for chaplains. The American Correctional 
Association has clear standards for what is required of a 
chaplain.
    What is a correctional chaplain? Much like our colleagues 
in the military and at hospitals, correctional chaplains 
provide pastoral care to those who are disconnected from the 
general community by certain circumstances--in this case to 
those who are imprisoned, as well as to the correctional 
facility staff and their families when requested. Each 
correctional chaplain is also a representative of his or her 
faith community and is required to be endorsed by their 
denominational body in order to qualify as a chaplain. 
Correctional chaplains are professionals, with specialized 
training in the unique dynamics of the corrections world.
    Professional chaplains also agree to abide by the ACCA Code 
of Ethics. Several departments of corrections across the 
country already subscribe to this Code of Ethics. For example, 
the New York City Department of Corrections recently adopted it 
for their own chaplains.
    Let me say this concerning some recent issues here with 
chaplains. If you had a member following this code under 
Competency, Article 7, members exercise their ministry without 
influencing prisoners or staff to change their religious 
preference or faith. Members conduct their ministry without 
communicating derogative attitudes towards other faiths.
    Another difficulty in having qualified correctional 
chaplains is that many States are experiencing serious budget 
deficits and have been eliminating or cutting back on their 
chaplains or replacing them with volunteers. If this were such 
a great idea, we wonder why this approach is not used in the 
legal departments. Having volunteer lawyers from the community 
would save many departments of corrections much money.
    By having unqualified volunteers operate in prisons without 
proper supervision can possibly lead to terrorist infiltration. 
A good correctional chaplain is familiar with the faith groups 
and volunteers within the community, even minority faith 
groups. It is this personal knowledge of community religious 
resources which is of benefit not only to inmates but the 
institution as well. Additionally, properly trained chaplains 
can distinguish between things that may be done in houses of 
worship in the community, but are not appropriate in a 
correctional setting. If a correctional chaplain observes or 
witnesses anything in a worship service or a religious study 
that in any way appears to be a threat to the institution, he 
or she is obligated to report it. Unfortunately, however, this 
is not the case in facilities that utilize unqualified 
chaplains or volunteers to oversee their programs.
    Finally, to fight terrorism, we must all be vigilant 
against our enemies wherever they might be. We professional 
chaplains can assist this cause by being an effective partner 
with all jurisdictions.
    The American Correctional Chaplains Association has already 
proven its ability to support the correctional needs with its 
longstanding affiliation with the American Correctional 
Association. The American Correctional Chaplains Association 
now stands ready to further help by promoting the certification 
of all chaplains in prisons across the United States.
    Thank you.
    [The prepared statement of Mr. Rogers appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much, Chaplain Rogers.
    Let me begin with a couple of questions, and, Professor 
Waller, I would like to ask you two related questions. As 
Senator Sessions noted earlier, our freedom of religion is 
constitutionally protected. We take it very seriously in our 
country. How do you propose in view of that that the U.S. 
Government approach this matter of radical Islam as a national 
security threat? And as a related matter, how do you respond to 
those who would say that even expressing this concern indicates 
some kind of prejudice against Muslims generally?
    Mr. Waller. This is a very touchy subject, but in sum, we 
are not looking at this as a religious problem. It is a 
national security problem. It is a political movement. Anytime 
you have a movement that talks about overthrowing the 
Constitution of the United States in the case of a lot of the 
Islamists and Wahhabis, it is ultimately to see the United 
States governed under sharia law. That steps from the religious 
to the political and certainly from protected First Amendment 
rights to something involving, you know, crying out for 
national security attention.
    Secondly, these groups have become very active in the 
political process using their religious name as a mantle for 
their political operations, for example, here in Washington, 
but have fundamentally political agendas here which are, in the 
cases of, say, the American Muslim Council and others, 
weakening U.S. counterterrorism laws, certainly the 1996 Anti-
Terrorism and Effective Death Penalty Act, and other things 
where they are trying to work in the mainstream to convince 
lawmakers to weaken counterterrorism laws to the advantage of 
their own operatives. So this is where you bridge from the 
purely religious to the political, and I think if it is 
approached in that respect, one can press forward and try to 
solve the problem.
    The other thing with people using the racism and bigotry 
argument, as we have encountered a lot, is that they are trying 
to silence debate on this. You see the groups in Washington, 
the Council on American-Islamic Relations, American Muslim 
Council, and others, are the lead ones crying racism and 
bigotry anytime an issue is brought up concerning the things we 
are talking about today. Certainly the founder of a lot of 
these groups, Abdurahman Alamoudi, who was just arrested 2 
weeks ago on charges of smuggling Libyan money, financing 
terrorism, and using foreign money to fund his political 
operations here, was one of those who was saying that the 
arrest of the 1993 World Trade Center bombers and the trials 
was racist and bigoted and that the arrest of other really 
hard-core terrorism cases was just proof of American's racism. 
So you really cannot put much stock into people who don't 
discuss this on the issues.
    Chairman Kyl. Do you personally draw the distinction that 
was made earlier with the first panel involving what somebody 
labeled the mainstream Sunni and Shiite branches of Islam, do 
you draw the distinction that was drawn earlier between those 
two very large representations of Islam and the group that you 
would refer to as the Wahhabists or the Islamists?
    Mr. Waller. Well, the Wahhabists are a part of the Sunni 
denomination of Islam, but you have--a lot of the groups that 
operate here under Saudi funding or guidance or whatever, the 
individuals who lead them are not even by their own admission 
observant Muslims, yet they will come to this panel or 
elsewhere to say how Muslim rights are being violated, or 
whatever else. So it is kind of like, say, Catholics for a Free 
Choice, which no Catholic bishop would ever say is a Catholic 
organization, but the organizers have an agenda that they want 
to push so they use that label.
    The Irish Republican Army, the Provisional Irish Republican 
Army used that label as well, calling itself a Catholic 
organization, when, of course, the Catholic Bishop of Dublin 
condemned it as a terrorist group. So you have a lot of groups, 
again, using religion for their own purposes. And then some, in 
the case of the Wahhabis, wanting to dominate the voice of 
Islam and basically control the Islamic faith, not only in 
other countries but here as well.
    Chairman Kyl. Chaplain Rogers, time is short. Just one 
quick question. You mentioned the potential problem of contract 
or volunteer chaplains, not being able to vet those as well. I 
presume that you are referring to a potential problem and not 
specific cases. But do you know of any situations where there 
may be a problem involving terrorism or radical preaching 
involved in the volunteer or contract chaplains that you 
mentioned?
    Mr. Rogers. My experience in Wisconsin, and maybe similar 
to other chaplains, where you have someone contracted in that 
may misspeak inappropriately in a worship service in an 
institution, bringing in materials and content that may rile up 
inmates, and they would have to be counseled, or sometimes they 
will be--they are statused to be removed as a service provider. 
But as far as specific kind of recruiting potential terrorists 
using the natural discontent some inmates have, we don't see 
that, I think, across the country. I think there are certain 
pockets, but there is more of a problem with, let's say, the 
States or the people who are responsible to oversee the program 
aren't trained, aren't qualified.
    Chairman Kyl. So the vetting process is a very important 
part of this entire process of selecting chaplains.
    Mr. Rogers. Yes.
    Chairman Kyl. Thank you.
    Senator Feinstein?
    Senator Feinstein. Thank you very much.
    Mr. Sabree, you are a chaplain? Is that right?
    Mr. Sabree. That is correct.
    Senator Feinstein. And could you tell me where you are 
assigned and practice?
    Mr. Sabree. I am assistant manager of chaplaincy for the 
Georgia Department of Corrections. I have been assistant 
manager, also acting director, since 1988. Prior to that I 
served as clinical chaplain at the State's maximum security 
prison in Reidsville, Georgia.
    Senator Feinstein. Thank you very much. I wanted to ask you 
this question as someone who is an Islamic chaplain. I think 
you know about the kind of militant tilt that some have given 
to Islam, which is not the real Islam--shahid, jihad, a change 
of concepts for the purposes of really inciting violence, for 
practicing hate, for turning an inner struggle into an outer 
war. How would you advise us to beware of this? How would you 
advise us to be able to prevent this from happening?
    Mr. Waller is not the only one, and I do a lot of open-
source reading. I think there is no question but that there is 
an attempt to penetrate universities and prisons to develop 
recruitment for militant causes. With respect to the 
chaplaincy, how would you advise us to try to see that that 
does not get established inside Federal prisons, inside the 
Department of Defense detention facilities?
    Mr. Sabree. I think that trying to maintain certain 
competencies, certain standards is very important, I think also 
getting information from reliable Islamic sources. The 
community I belong to under the leadership of W. Dean Mohammed 
is actually the largest Islamic community in America and is 
made up primarily of indigenous Muslims here.
    Senator Feinstein. Is it Shiite?
    Mr. Sabree. No. It is Sunni, it is Muslim. It is not under 
the Shiite banner, but you would basically Sunni Muslim. But 
for Muslims, we regard all Muslims as ones that follow the 
Sumna. Basically, when you look at some of the issues that I 
have been listening to in terms of endorsement, those in the 
military, I know personally some of these people. Abdul Rashid, 
for instance, the first military chaplain, was a member of our 
community. But in order to get endorsement or get into the 
military chaplaincy, he had to get endorsement by the only 
recognized Islamic body at that time by the military, which was 
the American Muslim Council, even though he belonged to another 
group of Muslims.
    And I think in terms of you have to look systematically, 
Islam is relatively new in America, and you don't have the 
educational institutions established in terms of seminaries and 
theological schools that allow people to have that history in 
terms of being educationally qualified for some of those 
positions. So that kind of pushes them towards those 
facilities, those institutions that do have those resources, 
and a lot of those resources are foreign-funded. And you are 
talking about people that do not have access to intelligence 
information.
    If you have got such a distinguished panel here that was 
before us and the Senate Committee can't say who is funding 
these organizations, how can you expect a lone chaplain to know 
what was behind some of the funding of some of these groups 
that may have given them access to make haj, which is a 
fundamental principle in the religion? Prior to 9/11, September 
11th, nobody viewed Saudi Arabia as a threat to the U.S. In 
fact, they were our allies in the first Gulf War. And to go 
back in time and say prior to 9/11 somebody who received some 
assistance to make a haj connects them to terrorists I think is 
basically an error in judgment. And I think that we have to 
continue to try to ensure that minimum qualifications and 
associations like the American Correctional Association, which 
I have been a member of for over 15 years, keeps pushing 
professionalism of chaplains, and in those State jurisdictions 
and Federal jurisdictions, you have oversight over people that 
are hired in those positions.
    And just in my position as a supervisor over chaplains in 
Georgia, whenever we have any chaplain--because we can find 
radicals in any religion.
    Senator Feinstein. Right, right.
    Mr. Sabree. And they can find themselves in positions, 
sometimes. And we have to have oversight in terms of 
monitoring. We have to have good supervision. We have to have 
good training. We have to make sure that we are not negligent 
in our entrustment, of what we entrust with people. We have to 
make sure that we are not negligent in our retention once we do 
find these things out. And I think that is what is needed in 
terms of future prevention of allowing the professionalism to 
go down to the point where you have all sorts of people having 
access to a population that is sometimes already angry and mad 
with the establishment. And that is where you begin to let 
things grow in the wrong direction.
    Senator Feinstein. Now, how would you ferret this out, 
going in the wrong direction?
    Mr. Sabree. Basically by maintaining continuing 
supervision, continuing oversight in terms of what is actually 
being given in terms of chaplaincies, duties and 
responsibilities, and just really monitoring those activities.
    Senator Feinstein. Do you believe that how the organization 
is funded--you mentioned that because Islam is new in this 
country, much of the financing comes from overseas. And, of 
course, we know particularly with respect to militant Wahhabism 
that a lot of that is funded by the Government of Saudi Arabia. 
How would you weed out militant Wahhabism?
    Mr. Sabree. By requiring that all chaplains are certified 
by a larger body.
    Senator Feinstein. A larger body than just the 
organizations, the three that we mentioned today?
    Mr. Sabree. Yes.
    Senator Feinstein. Do you have any thoughts on what the 
larger body should be?
    Mr. Sabree. Associations--take, for instance, the American 
Correctional Chaplains Association has a certification process. 
Different religious judicatories have endorsement, but 
certification is an ongoing process that really helps the 
person maintain professional standards and basically looks at 
personal and professional competency in terms of continuing in 
those lines of development.
    Senator Feinstein. One quick last question. My staff just 
showed me the Code of Ethics. Are you saying that the American 
Correctional Chaplains Association really should be one of the 
endorsing organizations that the Federal Government would use?
    Mr. Rogers. It would be--can I speak?
    Senator Feinstein. Of course.
    Mr. Rogers. It would be the group that would be after 
endorsement, generally. Sometimes the individual could be 
certified possibly prior to endorsement, but just like hospital 
chaplains, almost all hospital chaplains are certified. They 
seem to have a very commonly understood national standard. I 
don't know why we have the problem in corrections. I mentioned 
there are so many different jurisdictions. If all the 
jurisdictions said, well, we should have certified chaplains, 
and we are the recognized national organization that does 
certification for chaplains in the correctional setting. I 
think that would assist a lot.
    Senator Feinstein. I think that is very helpful.
    Thank you both very much.
    Chairman Kyl. Senator Durbin?
    Senator Durbin. Thank you very much.
    Mr. Waller, is it fair to conclude that you do not 
personally believe that all Muslims, people of the Islamic 
faith, support terrorism and violence?
    Mr. Waller. No, absolutely not. If it wasn't for a lot of 
Muslims here, I wouldn't know--we wouldn't have learned a lot 
of what we have learned.
    What we found was a lot, especially Muslims who emigrated 
here from the Middle East and other places, fled Wahhabism, 
many of them. They came to the United States to build a normal 
life. They go to their mosque here, and all of a sudden, they 
find that it is being taken over by the Wahhabis. And then 
they--
    Senator Durbin. Would you also concede that some Muslims in 
that category of innocence are unfairly discriminated against 
because of our efforts to find the roots of terrorism?
    Mr. Waller. Everybody is. I mean, I have been stopped at 
the airport security eight of my last ten flights. Does that 
mean I have been unfairly, you know, taken aside?
    Senator Durbin. Join the crowd.
    Mr. Waller. Yes. So everybody has. So the point is 
everybody has to--
    Senator Durbin. But you do not think particularly that 
people of Muslim religion are being discriminated against, or 
people of Arab background because of fears of terrorism in this 
country?
    Mr. Waller. I think some people feel that way. I think at 
some levels, certainly at the FBI, they are sort of bending 
over the opposite way to go out of their way not to.
    Senator Durbin. Let's pursue that for a second. I have 
several articles that you have written here for the Washington 
Times and Insight magazine. One group that you have focused on 
was the National Coalition to Protect Political Freedom. You 
have written a lengthy article about this coalition, and you 
have identified some 15 different groups that are part of this 
coalition. You say of this coalition: ``They have joined forces 
in an attempt to cripple U.S. law enforcement and to facilitate 
terrorist support activities inside the country.'' And one of 
the groups that you identified as part of the coalition here is 
a group called the American Muslim Council, and here is what 
you said: ``The American Muslim Council and the American Muslim 
Foundation share the same Washington offices, attempt to enter 
the mainstream dialogue with Christians and Jews. In reality, 
the group's key man, former executive director, current board 
member, Abdurahman Alamoudi, publicly proclaimed in October 
2000, `We are all supporters of Hamas. I am also a supporter of 
Hezbollah.'''
    And then in another article you make note of something 
which I would like to point out for the record. In June of 
2002, the Director of the Federal Bureau of Investigation, 
Robert Mueller, a man whom I respect very much, from the San 
Francisco area, who I think is doing a find job, you say that 
he was under orders from the White House to speak to the 
convention of this American Muslim Council, causing a rift and 
division within the FBI.
    Are you saying that the Director of the FBI spoke to a 
convention of a group that is, as you describe them, joining 
forces in an attempt to cripple U.S. law enforcement and to 
facilitate terrorist support activities?
    Mr. Waller. Director Mueller was under a lot of pressure 
either to speak or not to speak at that council.
    Senator Durbin. He spoke.
    Mr. Waller. He did. And the FBI press office, amongst the 
criticism of him speaking there, issued a statement saying that 
the American Muslim Council is one of the most mainstream 
Muslim groups in America today, which is completely fallacious. 
The founder and head of the council and then the head of the 
American Muslim Foundation--
    Senator Durbin. Is under indictment.
    Mr. Waller. He is under indictment now, but he has a long 
public record of not only supporting Hamas, Hezbollah, but--
    Senator Durbin. But can you explain--
    Mr. Waller. --a variety--the group that tried to 
assassinate--
    Senator Durbin. Can you explain to me how the Director of 
the FBI ended up speaking to the convention of the American 
Muslim Council that you have identified as a terrorist 
sympathizer group in America? How did this happen?
    Mr. Waller. I think it because the FBI doesn't value open-
source intelligence. I think it is because there is a 
bifurcation of the FBI between the agents on the ground and the 
leadership here in Washington. I know for a fact that FBI 
agents in the field were very upset and demoralized that their 
Director was--
    Senator Durbin. So you think Director Mueller made a 
mistake in speaking to this group?
    Mr. Waller. I think he made a big mistake.
    Senator Durbin. And you believe he was doing this, as you 
have written, under orders from a--let me get this. I want to 
correctly quote you. ``Senior administration officials tell 
Insight''--this is what you have written--``that FBI Director 
Robert Mueller was under orders from an unnamed senior White 
House campaign strategist to appease Muslim and Arab American 
groups that have been complaining noisily that Federal 
counterterrorism efforts are impinging on their civil rights.'' 
Who was that White House strategist?
    Mr. Waller. I can't say who the strategist was, but I can 
only say I stand by my statement.
    Senator Durbin. You believe that someone in the White House 
ordered FBI Director Mueller to speak to the American Muslim 
Council convention in June of 2002 and that this group is at 
least sympathetic if not supportive of terrorism?
    Mr. Waller. It cuts both ways. Yes, it cuts through both 
political parties, both this and the past administration--
    Senator Durbin. No, no, no. Please stick to your party. 
Please answer this question. Was he addressing a group--
    Mr. Waller. He addressed a group--
    Senator Durbin. --under orders from the White House that 
you think is sympathetic to terrorism?
    Mr. Waller. Yes.
    Senator Durbin. Thank you.
    Thank you, Mr. Chairman.
    Mr. Waller. But it goes both ways. It goes both 
administrations, it goes both parties.
    Senator Durbin. Thank you.
    Chairman Kyl. Is there anything else you want to say? In 
other words, we don't want to cut any witness off from 
explaining an answer. I think that is an important question and 
an important answer, and if there is anything else you would 
like to add, go ahead and do it.
    Mr. Waller. If I may, Senator Kyl, because Alamoudi is 
really the crux of what we are talking about here. He emigrated 
here in 1979. In the 1980's and up to 1990 he was executive 
assistant to the president of the SAAR Foundation in Northern 
Virginia. That is one of the main financers of these movements 
we are talking about. Later found to have--to serve as a front 
for international terrorist activity, and subsequently under 
investigation by Operation Green Quest.
    He founded the American Muslim Council in 1990 and the 
American Muslim Foundation is in the same office building, 
financed by the SAAR family. In the next year, 1991, he created 
the American Muslim Armed Forces and Veterans Affairs Council, 
which was talked about today, whose purpose is to certify 
Muslim chaplains hired by the military.
    In or about 1993, he had exerted political influence 
because, like any administration, they want to expand their 
electoral support and had somehow gotten close to people of 
influence in the administration, who in 1993 certified his 
organization as one of two vetted and endorsed Muslim 
chaplains.
    Meanwhile, he was vocal attacking arrests of terrorists, 
including Mohammed Solome, who was arrested 10 days after the 
first World Trade Center bombing in 1993. From 1993 to 1998, 
the Pentagon retained Alamoudi on an unpaid basis to nominate 
and vet Muslim chaplain candidates for the military.
    In 1994, he was complaining that the judge was picking on 
the 1993 World Trade Center bombers because of their religion. 
He was openly defending Hamas over the years. He became a 
naturalized--all this is before he became a U.S. citizen. He 
had all this access. In 1996, he became a citizen, swearing to 
uphold and defend the Constitution of the United States. He 
spoke out in response to the arrest of Hamas political leader 
Mousa Abu Marzook. And he illustrated his two-track approach to 
how he operates and how his organizations operate. Abroad it is 
violence; here it is working through the system.
    He said, ``I think if we are outside this country we can 
say, `Oh, Allah, destroy America.' But once we are here, our 
mission in this country is to change it.''
    He protested Federal airline regulations concerning 
terrorism security. In January 2001, he attended a conference 
in Beirut with leaders of terrorist organizations, including 
Al-Qaeda. Last year, he protested the arrest of convicted cop 
killer Imam Jamal Abdullah Al-Amin, formerly H. Rap Brown, who 
twice held a senior office position within his organization.
    In fact, last June, to address a previous question, June of 
2002, while the FBI Director was getting ready to speak at the 
American Muslim Council conference, the AMC executive director, 
Eric Bickers, was asked several times on Fox News and on MSNBC 
if he would denounce Hamas, Hezbollah, and Islamic jihad by 
name. He would not. He was asked to denounce Al-Qaeda by name. 
He would not. And in one instance, I believe it was on Chris 
Matthews, he called Al-Qaeda ``a resistance movement.'' This is 
before the FBI Director spoke at the conference. This is the 
executive director of the organization running the conference. 
And then the FBI came out with a public statement calling the 
AMC ``the most mainstream Muslim group in the United States.''
    Senator Durbin. Mr. Chairman, may I say a word?
    Chairman Kyl. Sure, Senator Durbin.
    Senator Durbin. It is my understanding Mr. Alamoudi was not 
with the American Muslim Council when the FBI Director spoke to 
the group. Having said that, though, I find myself in a curious 
position here defending Director Robert Mueller, and the reason 
I raised this issue and made it part of this discussion is I 
think we need to take care with the statements we make and the 
witnesses we invite. Some of the things that have been said, 
for instance, about Director Mueller relative to his appearance 
before the American Muslim Council I think were out of line. I 
think he is a patriotic American who works night and day to 
keep this country safe and has reached out to the American 
Muslim community to try to establish some sort of relationship 
to help aid us in this war on terrorism.
    Some of the writings of Mr. Waller would lead to the 
opposite conclusion, and I think they are wrong. I am not of 
the same party of Mr. Mueller, but I respect him greatly. I 
think he is doing a fine job. And I think it really is a 
caution to all of us to take care that when we start finding 
those guilty of terrorism, we don't paint with such a wide 
brush that we include Muslims and Muslim organizations, which 
may include people who have no interest in terrorism 
whatsoever. And I think some of the things Mr. Waller has 
written have gone over that line.
    Chairman Kyl. Well, I certainly share your sentiment that 
Robert Mueller is a patriotic American and have a lot of 
personal affection for him as well.
    By the way, by way of clarification, was Alamoudi involved 
with CAIR at the time that--
    Senator Feinstein. AMC.
    Chairman Kyl. Or I mean AMC at the time that the FBI 
Director spoke? I don't know that you had said that he was, but 
do you know whether he was?
    Mr. Waller. He chaired the conference. He is on the board 
of AMC, but he left the AMC a few years ago to be day-to-day 
operations as head of the American Muslim Foundation, which is 
the 501(c)(3) part of the AMC.
    Chairman Kyl. Okay. But, anyway, he chaired the conference 
at which the FBI Director spoke.
    Mr. Waller. Yes, and the FBI indictment from a couple of 
weeks ago said that even though he was not officially head of 
the American Muslim Council, that the Federal authorities 
believe that he still controls the organization.
    This is part of the problem of dealing with certain groups 
here, and it is never besmirching the Director's patriotism. It 
is questioning his judgment and political wisdom, and those are 
two--I draw a very strong distinction, because I am also an 
admirer of the FBI Director. But I think there is a lot of 
political pressure to prove that this is not a war on Islam, 
and I think politicians from both parties are often too anxious 
to get involved with or to speak before or otherwise legitimize 
groups that they really haven't done the background check on. 
And we criticized the Director at the time. I think it was the 
correct thing to do. I think also, in retrospect, many in the 
FBI believe the same because the FBI is being invited to these 
organizations to speak again and they are no longer sending 
representatives.
    Chairman Kyl. Okay. Well, thank you very much to all the 
members of this panel. I hope that we have cast some additional 
light on the questions that we asked at the beginning. I think 
we have, and I think there is a lot of follow-up that is going 
to be done as well.
    We will be having another hearing in this series. I cannot 
announce the date right now, but I think in the next 2 or 3 
weeks, look for another hearing of this Subcommittee on related 
subjects.
    I thank all of you for attending, and, again, thank you to 
our witnesses.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]
    [Additional material is being retained in the Committee 
files.]

[GRAPHIC] [TIFF OMITTED] T3254.001

[GRAPHIC] [TIFF OMITTED] T3254.002

[GRAPHIC] [TIFF OMITTED] T3254.003

[GRAPHIC] [TIFF OMITTED] T3254.004

[GRAPHIC] [TIFF OMITTED] T3254.005

[GRAPHIC] [TIFF OMITTED] T3254.006

[GRAPHIC] [TIFF OMITTED] T3254.007

[GRAPHIC] [TIFF OMITTED] T3254.021

[GRAPHIC] [TIFF OMITTED] T3254.022

[GRAPHIC] [TIFF OMITTED] T3254.008

[GRAPHIC] [TIFF OMITTED] T3254.009

[GRAPHIC] [TIFF OMITTED] T3254.010

[GRAPHIC] [TIFF OMITTED] T3254.011

[GRAPHIC] [TIFF OMITTED] T3254.012

[GRAPHIC] [TIFF OMITTED] T3254.013

[GRAPHIC] [TIFF OMITTED] T3254.014

[GRAPHIC] [TIFF OMITTED] T3254.015

[GRAPHIC] [TIFF OMITTED] T3254.016

[GRAPHIC] [TIFF OMITTED] T3254.017

[GRAPHIC] [TIFF OMITTED] T3254.018

[GRAPHIC] [TIFF OMITTED] T3254.019

[GRAPHIC] [TIFF OMITTED] T3254.020

[GRAPHIC] [TIFF OMITTED] T3254.023

[GRAPHIC] [TIFF OMITTED] T3254.024

[GRAPHIC] [TIFF OMITTED] T3254.025

[GRAPHIC] [TIFF OMITTED] T3254.026

[GRAPHIC] [TIFF OMITTED] T3254.027

[GRAPHIC] [TIFF OMITTED] T3254.028

[GRAPHIC] [TIFF OMITTED] T3254.029

[GRAPHIC] [TIFF OMITTED] T3254.030

[GRAPHIC] [TIFF OMITTED] T3254.031

[GRAPHIC] [TIFF OMITTED] T3254.032

[GRAPHIC] [TIFF OMITTED] T3254.033

[GRAPHIC] [TIFF OMITTED] T3254.034

[GRAPHIC] [TIFF OMITTED] T3254.035

[GRAPHIC] [TIFF OMITTED] T3254.036

[GRAPHIC] [TIFF OMITTED] T3254.037

[GRAPHIC] [TIFF OMITTED] T3254.038

[GRAPHIC] [TIFF OMITTED] T3254.039

[GRAPHIC] [TIFF OMITTED] T3254.040

[GRAPHIC] [TIFF OMITTED] T3254.041

[GRAPHIC] [TIFF OMITTED] T3254.042

[GRAPHIC] [TIFF OMITTED] T3254.043

[GRAPHIC] [TIFF OMITTED] T3254.044

[GRAPHIC] [TIFF OMITTED] T3254.045

[GRAPHIC] [TIFF OMITTED] T3254.046

[GRAPHIC] [TIFF OMITTED] T3254.047

[GRAPHIC] [TIFF OMITTED] T3254.048

[GRAPHIC] [TIFF OMITTED] T3254.049

[GRAPHIC] [TIFF OMITTED] T3254.050

[GRAPHIC] [TIFF OMITTED] T3254.051

[GRAPHIC] [TIFF OMITTED] T3254.052

[GRAPHIC] [TIFF OMITTED] T3254.053

[GRAPHIC] [TIFF OMITTED] T3254.054

[GRAPHIC] [TIFF OMITTED] T3254.055

[GRAPHIC] [TIFF OMITTED] T3254.056

[GRAPHIC] [TIFF OMITTED] T3254.057

[GRAPHIC] [TIFF OMITTED] T3254.058

[GRAPHIC] [TIFF OMITTED] T3254.059


</pre></body></html>
